No.

3fa CJe

Supreme Court of tje QKmteb States!
Donald Dallas,
Petitioner,
v.
Warden,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

Christine A. Freeman
Executive Director
Allyson R. duLac
Co unsel ofRecord
Federal Defenders for the
Middle District of Alabama
817 S. Court Street
Montgomery, AL 36104
(334) 834-2099
Allyson_duLac@fd.org

February 26, 2021

CAPITAL CASE
QUESTIONS PRESENTED

1. Can a federal habeas court conducting a penalty phase Strickland analysis
ignore post-conviction mitigating evidence that is materially different in
quality, quantity and specificity solely because it is thematically similar to
what was presented at trial?
2. Can a federal habeas court determine that a state court decision was
reasonable as required by 28 U.S.C. § 2254(d)(1) based exclusively on
intervening precedent decided after the last reasoned state court opinion but
before federal habeas concludes?

i.

LIST OF PARTIES
The Petitioner is Donald Dallas. The Respondent is the Warden of
Holman Correctional Facility, where Mr. Dallas is incarcerated. That position
is presently held by Terry Raybon. Because no petitioner is a corporation, a
corporate disclosure statement is not required under Supreme Court Rule
29.6.

ii

LIST OF PROCEEDINGS
Federal
Dallas v. Alabama, 525 U.S. 860 (1998)
Dallas v. Warden, et. al., 964 F.3d 1285 (llth Cir. 2020)
Dallas v. Warden, et. al., No. 2:02-cv00777-WKW-SRW (M.D. Ala. July 14.
2017).

State
Dallas v. State, 711 So. 2d 1101 (Ala. Crim. App. 1997)
Dallas v. State, No. CC-94-2142.60 (March 1, 2002)
Ex parte Dallas, 711, So. 2d 1114 (Ala. 1998)
Ex parte Dallas, 845 So. 2d 780 (Ala. 2002)

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

LIST OF PARTIES

11

LIST OF PROCEEDINGS

m

TABLE OF CONTENTS

IV

TABLES OF AUTHORITIES

vi

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS

2

INTRODUCTION

3

STATEMENT OF THE CASE

4

I.

II.

III.

The crime and Mr. Dallas’ trial

4

A. The crime
B. Trial........

4
6

Direct Appeal and post-conviction proceedings.

10

A. Direct Appeal..........
B. Rule 32 proceedings

10
10

Federal Habeas Proceedings

14

REASONS FOR GRANTING THE WRIT
I.

16

The writ should be granted so the Court can resolve the question of
how all federal habeas courts should analyze post-conviction
mitigation evidence for purposes of Strickland prejudice analysis on
de novo review
16

iv

A. The decision below conflicts with decisions of other courts of
appeals ......................................................................................... 17
B. The Strickland prejudice analysis requires a holistic evaluation
of mitigating evidence; the decision below is wrong
23
II.

The writ should be granted so the Court can resolve the important
federal question^ Can a federal habeas court determine that a state
court decision was reasonable as required by 28 U.S.C. § 2254(d)(1)
based on later-decided United States Supreme Court precedent?
31
A. Motion to Withdraw...............
B. Direct Appeal..........................
C. The Eleventh Circuit opinion

III.

33

34
35

This case is a proper vehicle for the Court to resolve these issues..39

CONCLUSION

39

v

TABLE OF AUTHORITIES
FEDERAL CASES
AbdulSalaam v. Sec’y ofPa. Dep’t of Corr., 895 F.3d 254 (3d Cir. 2018)...... 21
Anderson v. Dir., Ark. Dep’t of Corr., 2018 WL 5927515 (8th Cir. June 12
2018)................................................................................................... .............................
Anderson v. Kelley, 938 F.3d 949 (8th Cir. 2019)
Anderson v. Payne, 141 S. Ct. 273 (2020)
Andrus v. Texas, 140 S. Ct. 1875 (2020)

20

20-21
20
24, 28-30

Atley v. Ault, 191 F.3d 865 (8th Cir. 1999)

38

Ayestas v. Davis, 138 S. Ct. 1080 (2018)

31

Beuke v. Houk, 537 F.3d 618 (6th Cir. 2008)

18

Bond v. Beard, 539 F.3d 256 (3d Cir. 2008)

21

Broom v. Mitchell, 441 F.3d 392 (6th Cir. 2006)

19

Busby v. Davis, 140 S. Ct. 897, 205 L. Ed. 2d 470 (2020)

19

Busby v. Davis, 925 F.3d 699 (5th Cir. 2019)

19

Boyd v. Allen, 592 F.3d 1274 (llth Cir. 2010)

18

Callahan v. Campbell, 427 F.3d 897 (llth Cir. 2005)

33

Clark v. Mitchell, 425 F.3d 270 (6th Cir. 2005)

20

Cullen v. Pinholster, 563 U.S. 170 (2011)

32

Cuyler v. Sullivan, 446 U.S. 335 (1980)

34-38

Crawford v. Head, 311 F.3d 1288 (llth Cir. 2002)

33

Dallas v. Warden, 964 F.3d 1285 (llth Cir. 2020)

36-37

Green v. Fisher, 565 U.S. 34 (2012)

32-33
vi

Griffin v. Pierce, 622 F.3d 831 (7th Cir. 2010)

22

Harrington v. Richter, 562 U.S. 86 (2011)

31

Holloway v. Arkansas, 435 U.S. 475 (1978)

34-39

Holsey v, Warden, Ga. Diagnostic Prison, 694 F.3d 1230 (llth Cir. 2012).... 18
Jenkins v. Comm., Ala. Dep’t of Corn, 963 F.3d 1248 (llth Cir. 2020)..........30
Lockyer v. Andrade, 538 U.S. 63 (2003)

32

Mickens v. Taylor, 535 U.S. 162 (2002)

36-38

Moormann v. Ryan, 628 F.3d 1102 (9th Cir. 2010)

23

Neill v. Gibson, 278 F.3d 1044 (10th Cir. 2001)

38

Newland v. Hall, 527 F.3d 1162 (llth Cir. 2008)

33

Parr v. Quarterman, 472 F.3d 245 (5th Cir. 2006)

19

Pike v. Gross, 936 F.3d 372 (6th Cir. 2019)

20

Pooler v. Sec’y, Fla. Dep’t of Corr., 702 F.3d 1252 (llth Cir. 2012)

18

Porter v. McCollum, 558 U.S. 30 (2009)

24-25

Pruitt v. Neal, 788 F.3d 248 (7th Cir. 2015)

22

Rhode v. Hall, 582 F.3d 1273 (llth Cir. 2009)

19

Rompilla v. Beard, 545 U.S. 374 (2005)

33

Rose v. McNeil, 634 F.3d 1224 (llth Cir. 2011)

18

Sears v. Upton, 561 U.S. 945 (2010)

24-25, 30

Stankewitz v. Woodford, 365 F.3d 706 (9th Cir. 2004)

23

Stankewitz v. Wong, 698 F.3d 1163 (9th Cir. 2012)

23

Stevens v. McBride, 489 F.3d 883 (7th Cir. 2007)

22

vii

Stewart v. Sec’y, 476 F.3d 1193 (llth Cir. 2007)
Strickland v. Washington, 466 U.S. 668 (1984)

33

passim

Tanzi v. Sec’y, Fla. Dep’t of Corr., 772 F.3d 644 (llth Cir. 2014)

18

Tevino v. Davis, 861 F.3d 545 (5th Cir. 2017)

19

United States v. Cook, 45 F.3d 388 (10th Cir. 1995)

38

United States v. Gallegos, 108 F.3d 1272 (10th Cir. 1997)

38

United States v. Rogers, 209 F.3d 139 (2d Cir. 2000)

38

Wiggins v. Smith, 539 U.S. 510 (2003)

24, 26, 33

Williams v. Taylor, 529 U.S. 362 (2000)

24, 32-33

Wood v. Georgia, 450 U.S. 261 (1981)

38

STATE CASES:
Dallas v. State, 711 So. 2d 1101 (Ala. Crim. App. 1997)

9-10, 35

Ex parte Dallas, 711 So. 2d 1114 (Ala. 1998)................. .

9-10

McGowan v. State, 909 So.2d 931 (Ala. Crim. App. 2003)

3

STATUTES & CONSTITUTION®):
Alabama Code § 13A-5-51 (1975)

9

Alabama Code § 13A-5-54 (1975).....

3

28 U.S.C. § 2254

14

28 U.S.C. § 2254(1)

passim

28 U.S.C. § 2254(d)

2, 31

viii

28 U.S.C. § 2254(d)(1)

.passim

APPENDIX:
Appendix A

.passim

Appendix B

1, 15

Appendix C

1

Appendix D

34

MISCELLANEOUS:
Oral Argument at 2:09, Dallas v. Warden, 964 F.3d 1285 (llth Cir. 2020) (No.
17-14570), https://www.call.uscourts.gov/oral-argument-recordings.
37

ix

PETITION FOR A WRIT OF CERTIORARI
Donald Dallas respectfully requests that this Court grant a writ of
certiorari to review the decision of the Court of Appeals for the Eleventh
Circuit.
OPINIONS BELOW
The Eleventh Circuit Court of Appeals’ opinion in this case affirming
the district court’s denial of habeas relief is attached as Appendix A. The
district court for the Middle District of Alabama’s opinion denying Mr. Dallas’
habeas corpus petition is attached as Appendix B.
JURISDICTION
The Eleventh Circuit Court of Appeals denied Mr. Dallas’ rehearing
petition on September 29, 2020. Appendix C. This Court previously ordered
that the deadline to file any petition for a writ of certiorari due on or after
March 19, 2020 be extended 150 days. Pursuant to that order, and Supreme
Court Rule 30.1, this petition is due on February 26, 2021. This petition is
timely filed pursuant to that order and rule, and the Court has jurisdiction to
review this case pursuant to 28 U.S.C. § 1254(l).

1

RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS
The Sixth Amendment to the United States Constitution provides, in
pertinent part:
“In all criminal prosecutions, the accused shall enjoy the right to
. . . have the Assistance of Counsel for his defense.”
The Fourteenth Amendment to the United States Constitution
provides, in pertinent part:
No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States! nor
shall any state deprive any person of life, liberty, or property,
without due process of law! nor deny to any person within its
jurisdiction the equal protection of the laws.
28 U.S.C. § 2254(d) provides that:
An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted
with respect to any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the claim—
(l) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States.

2

INTRODUCTION
Alabama has no statewide public defender system. At the time of Mr.
Dallas’ trial, there was a single requirement for court-appointed capital
counsel: five years’ prior experience in the active practice of criminal law. 1
The judge randomly appointed capital counsel from a pool of attorneys within
the circuit. Given Alabama’s close-knit legal communities and rural
construct, there was a significantly limited pool of lawyers available to
represent capital defendants.2 More importantly, there was an even smaller
pool of conflict-free counsel available.
By their own admission, Mr. Dallas’ counsel was conflicted and, as a
result, had inadequate time to prepare for his capital murder trial. Algert S.
Agricola, engaged in a months-long litigation as a Deputy Attorney General
for the State of Alabama immediately before Mr. Dallas’ trial began. At that
time, Mr. Agricola was - through no fault of Mr. Dallas — the ninth lawyer
appointed to represent Mr. Dallas in his capital murder trial. Jeffrey C.
Duffey, the tenth lawyer and Mr. Agricola’s co-counsel, was equally ham­
strung, having been appointed just one month before the start of trial. The

1 Ala. Code § 13A-5-54 (1975). Even this minimal requirement was often
overlooked when the “objective and intent of the statute” was deemed
“fulfilled.” McGowan v. State, 909 So.2d 931, 990 (Ala. Crim. App. 2003).
2 “[W]e find that the convergence of the particular circumstances here—a
rural circuit where the pool of attorneys available did not contain even one
available attorney that would optimally meet the requirement of the statute.
. . and, of utmost importance, the excellent representation given by the
attorneys—meets the intent of the Legislature, whereas reversal of this
conviction would not.” Id. at 995.
3

court thwarted counsel’s pre-trial efforts to avert this impending disaster^
denying counsel’s motion to withdraw and an unopposed motion for
continuance. As a result, neither attorney devoted sufficient effort to an
investigation, resulting in a surface-level mitigation presentation completely
devoid of detail and persuasive impact. Counsel’s conflicting obligations
caused a failure to retain a mitigation investigator until three days before
trial and precluded meeting with Mr. Dallas’ family to discuss the penalty
phase until in the hallway of the courthouse right before they testified. Mr.
Dallas was prejudiced by this foreseeable systemic failure.
STATEMENT OF THE CASE
The first question presents an acknowledged circuit conflict concerning
the analysis of Strickland prejudice at the penalty phase of a capital trial.
The second question presents the undeniably important question of whether
a federal habeas court may consider this Court’s intervening precedent
decided after the state court decision when conducting a § 2254(d)(1)
reasonableness analysis.
I. The crime and Mr. Dallas’ trial
A. The crime
In 1994, Donald Dallas was ravaged by the untreated effects of his
traumatic childhood, his toxic co-dependent relationship with Polly Yaw, and
decades of drug and alcohol addiction. When they were out of money and

4

desperate, Donald and Polly stole to support their addiction and to stave off
withdrawal. Just before the crime, Donald reported that they:
were binging on [crack] cocaine for about twelve days, that [he]
was oblivious to time, that he was not even aware that he had
had a birth date during that time, that they were just in the
process of acquiring money to purchase cocaine, using the
cocaine, and going out and getting whatever money he needed to
do more cocaine.3
On July 12, 1994, Donald and Polly encountered 73-year old Mrs.
Hazel Liveoak, in a grocery store parking lot. They kidnapped her and forced
her into her own car to steal money for drugs. After driving for a while, they
put Mrs. Liveoak into the trunk, drove to her bank, and used her ATM card
to withdraw funds from her account. Mr. Dallas promised Mrs. Liveoak that
he would return to free her. After they got the money, Donald and Polly left
the car parked with Mrs. Liveoak still inside the trunk. From there, they
immediately went to a drug dealer and used all the stolen cash to buy crack
cocaine. They then smoked crack throughout the night at a motel. A day
later, police found Mrs. Liveoak’s parked car and discovered that she had
died in the trunk from a heart attack.
While abundant evidence established an intent to commit kidnapping
and robbery, relatively little suggested Mr. Dallas intended for Mrs. Liveoak
to die. Since the date of his arrest on July 14, 1994, two days after the
kidnapping, Mr. Dallas has consistently admitted to her kidnapping but

3 App. A at A-9.
5

asserted that he never intended to harm her. In his police statement, Mr.
Dallas stated he had attempted to return to the parking lot where he left
Mrs. Liveoak’s car to make sure the car had been found and Mrs. Liveoak
had been released. Mr. Dallas also contended that when he robbed Mrs.
Liveoak he told her he was doing it because of his crack addiction, and he was
intoxicated with crack cocaine when he left her in her car.
B. Trial
Mr. Dallas’ defense presentation at both the guilt and penalty phases
was infected by unprepared and conflicted counsel. Mr. Duffey later testified,
he “wasn’t sure [he] knew all the facts” and he did not have sufficient time “to
fully investigate” the case. His usual practice in capital cases was to speak to
witnesses himself after an investigator had interviewed them. But here, he
spoke to no witnesses and he “didn’t feel [he] was ready for trial.” Mr.
Agricola didn’t interview anyone either.
At trial, counsel argued, without the benefit of a defense expert, that
Mr. Dallas’ drug use negated his intent to commit capital murder. During the
culpability phase, counsel called Dr. Guy Renfro, a clinical psychologist whom
the trial court appointed to evaluate Mr. Dallas for competency to stand trial
and mental state at the time of the offense. Dr. Renfro opined that Mr. Dallas
had committed the offense because of his pernicious and untreated drug
addiction, but had not intended to kill Mrs. Liveoak. To that end, Mr. Dallas
also provided corroborating testimony about his addiction history.

6

As a culpability phase witness and court-appointed expert, Dr. Renfro’s
testimony was necessarily limited: although he diagnosed Mr. Dallas with a
long-lived drug addiction, he did not discuss Mr. Dallas’ childhood trauma,
much less explain how it could have impacted his neurodevelopment or
induced mental health problems. The jury subsequently convicted Mr. Dallas
of two capital offenses: murder in the course of a kidnapping in the first
degree, and murder in the course of a robbery in the first degree.
When the penalty phase began later the same day, counsel had not
conducted any mitigation investigation. Before that, counsel had not timely
engaged qualified experts who could have performed an adequate
investigation for the penalty phase. In fact, three days before trial, counsel
hired Susan James, an attorney with extremely limited experience as an
investigator, to conduct the mitigation investigation. But it’s evident that she
did very little. She met with Mr. Dallas only once two days before trial for
less than three hours. Ms. James never obtained information about Mr.
Dallas’ “medical history, educational history, employment and training
history, family and social history, [or] correctional history.” Ms. James did
not seek or interview witnesses herself. Instead, she outsourced the
mitigation investigation.
Despite the court’s approval of funds for a separate and independent
evaluation by a defense psychologist, the defense never hired one. At the
penalty phase, counsel again argued that Mr. Dallas’ crack addiction was a

7

significant factor in the commission of this crime and that the jury should
give consideration to his “extreme mental or emotional disturbance” and lack
of “capacity to conform his conduct to the requirements of law.” However,
counsel presented no further expert testimony to support this argument.
Instead, with minimal preparation just before the penalty phase
began, counsel called upon on Mr. Dallas’ siblings to testify. Counsel and Ms.
James met with Mr. Dallas’ brother, Paul Dallas, and sister, Cindy Knight,
for the first time in the courthouse hallway shortly after the culpability phase
had ended. Predictably, counsel struggled to elicit detailed testimony from
either of them.
The sum and substance of Cindy Knight’s testimony at the penalty
phase was a single phrase: “It was hell.” Cindy did not provide any details
about the abuse she and her siblings endured. Her entire testimony covered
less than 12 transcript pages and was so devoid of impact that the State did
not bother to cross-examine her.
Further, trial counsel barely questioned Paul and actively discouraged
him from elaborating about his childhood. Counsel failed to ask Paul a single
question about his own experience growing up in the Dallas household.
, The entire defense presentation at the penalty phase consists of 26
transcript pages. The penalty phase, including the evidence presented by the
prosecution, took less than three hours.
Eliciting testimony only in general terms about addiction, neglect and

8

abuse, counsel offered the jury a woefully incomplete account of Mr. Dallas’
background, leaving the jury with an inaccurate impression of his life. Jurors
heard nothing about specific instances of physical and sexual abuse Mr.
Dallas witnessed and had inflicted upon him, the abject poverty and squalor
in which he lived where his parents failed to nurture or protect him, his lack
of access to health care and education, how his mother’s mental instability
and neglect shaped him, his early exposure to adult sexuality, his cognitive
disorders, or about generational sexual abuse or genetic predisposition for
addiction.
Presented with only a superficial and, at times, misleading account of
Mr. Dallas’ childhood, the jury sentenced him to death by an 11-1 margin.
Unpersuaded by counsel’s undeveloped sentencing case, the trial court
affirmed the jury’s recommendation. In doing so, it found three aggravating
circumstances had been proven.4 But it found no evidence to support
statutory mitigating circumstances, including those premised on Mr. Dallas’
mental state,5 and it gave minimal weight to the non-statutory mitigating
circumstances Mr. Dallas proffered.6

4 Dallas v. State, 711 So. 2d 1101, 1113 (Ala. Crim. App. 1997), affd sub nom.
Ex parte Dallas, 711 So. 2d 1114 (Ala. 1998).
5 Id. at 1113 (“Although the appellant presented a number of mitigating
circumstances that the trial court considered and specifically addressed, it
found that no statutory mitigating circumstances existed in this case. § 13A5-51, Code ofAlabama 1975.”).
6 Id. at 1113 (noting “the trial court did not give great weight to these
factors.”).
9

II. Direct appeal and post-conviction proceedings
A.

Direct appeal

On April 11, 1996, Mr. Duffey filed Mr. Dallas’ direct appeal.7 Mr.
Duffey asserted that the trial court denied Mr. Agricola’s motion to withdraw
due to a conflict without hearing. The State responded that the claim was
without merit but did agree on one thing,' that the motion to withdraw was
denied without hearing. On March 21, 1997, the Alabama Court of Criminal
Appeals (“ACCA”) denied the claim because “an actual conflict of interest did
not exist in this case” and found that the motion to withdraw was “denied
without hearing.”8 The Alabama Supreme Court affirmed.9 Certiorari review
was denied by this Court.
B.

Rule 32 proceedings

Mr. Dallas filed a pro se petition pursuant to Rule 32, Ala. R. Crim. P.,
alleging ineffective assistance of penalty phase counsel claim. The state court
held an evidentiary hearing, where Mr. Dallas’ defense team candidly
confessed their abject failure to prepare for either phase of trial, in primary
part, because of lead counsel’s conflict. But Mr. Dallas’ petition was
ultimately denied and his appeal was stricken. While the post-conviction

7 Mr. Agricola again sought to withdraw as counsel on direct appeal, citing
his “divided loyalties”. The Alabama Court of Criminal Appeals granted his
motion.
8 Dallas v. State, 711 So. 2d 1102, 1111 (Ala. Crim. App. 1997).
9 Ex parte Dallas, 711 So. 2d 1114 (Ala. 1998).
10

court did not consider this evidence, Mr. Dallas, nonetheless, established the
following^
Donald was born on July 8, 1964 in Syracuse, New York, James’ and
Elaine Dallas’s fourth child, behind Jimmy, Cindy, and Paul. Donald’s
parents were irresponsible, mentally ill addicts, incapable of caring for their
children. Donald was neglected and abused - exposed to sex, substance
abuse, and violence - from the day he was born. The family has a multigenerational history of alcoholism, prescription drug abuse, and drug
addiction. Donald’s parents were both alcoholics whose lives centered on the
next drink. His exposure to alcohol started in the womb: when Elaine was
pregnant with Donald, she was chronically inebriated.
James and Elaine frequently took their children to bars, spending all
the family’s money on alcohol rather than food. Bartenders and James’ co­
workers gave the children food scraps to keep them from starving. Sometimes
James, a trucker, was so drunk he could not unload his truck after work and
forced his children to do it instead. Elaine frequently mixed alcohol and
prescription pills. She kept as many as 15 bottles of drugs on her nightstand.
James not only dragged his children to bars — he also took them to his
mistresses’ houses and made them wait while he engaged in illicit affairs.
Donald saw his father having sex with these women in their houses, in cars,
and even once in his own front yard.

11

Elaine was unable to care for the children alone. She had frequent
mental breakdowns — starting with a very morbid, depressed state and
progressing to screaming fits, uncontrollable crying, and violence. Once she
grabbed a knife and threatened to kill her children; twice her children saw
her strapped into a straitjacket and taken from the house. When Donald was
five, his mother was committed to a psychiatric unit because the police found
her walking on the highway, stating she wanted to die, and banging her head
on the pavement. When Donald was six, his mother was again committed
because she was in a highly agitated and hysterical state; she had been
drinking and lost control.
Donald saw his father beat his mother, threaten to kill her, and chase
her with knives and guns. He was often afraid that his father would kill his
mother. James even beat Elaine during pregnancy.
James also frequently beat Donald and his siblings. But these beatings
paled in comparison to the extreme physical and psychological trauma Elaine
inflicted on Donald at a very young age. Elaine struck Donald and his
siblings with her hands, bats, and belt buckles. She kicked the children as
they lay prone on the floor. She would pick Donald up by one arm and lash
him repeatedly with a belt. She even had a cattle prod-type device that she
used to shock Donald and his siblings.
Donald and the other children slept on bare, dirty, urine-stained
mattresses. There were stray cats, dogs, and goats all over the house, as

12

many as 20 at a time, so the house was saturated with animal feces. In these
squalid conditions, sometime between the ages of five and seven, Donald was
bitten by a rat in his own home.
No one cooked or cleaned for the children. Donald was responsible for
finding and cooking his own food and cleaning up afterwards! if he made a
simple mistake, such as leaving a spot on a dish, he would be beaten.
Donald and his siblings were not taught basic self-care, such as how to
brush their teeth. They rarely saw a doctor. As a baby, Donald developed
severe pneumonia, but his parents refused to take him to the hospital.
When Donald was seven, Elaine left James because the physical abuse
became intolerable. Elaine, Cindy, Paul, and Donald moved in with Elaine’s
boyfriend, Chesley “Chick” Collier, while Jimmy stayed with James. Chick
played music in bars and most nights he would bring the children along. The
family’s life continued to revolve around alcohol! Chick and Elaine drank
heavily every day.
Chick, Elaine, and the children moved to Florida and then to Alabama,
where their drinking got worse. The children were on their own. Elaine
admitted that Donald never regularly went to school and that he stopped
going altogether in the eleventh grade. Donald has severe dyslexia and
presently reads at a fifth grade level.
Once in Alabama, the family became close with Chick’s sister, Patricia
Medford, and her daughter, Vicky, and the children spent a lot of time at

13

Patricia’s house. Unfortunately, Patricia’s house provided no safe haven. At
the age of eight or nine, Donald and his brother Paul were left with a 59-yearold male friend of Patricia’s. This man anally raped each boy while forcing his
brother to watch. He also forced Donald and Paul to perform oral sex on him.
The man sexually abused them four more times.
After this, Donald increased his alcohol consumption - drinking every
day by the age of ten. When he was 12 or 13 years old, he began regularly
using marijuana and at 13 or 14 he began injecting crystal
methamphetamine and other drugs.
Around this time, Donald met Carolyn “Polly” Yaw. They regularly
used crack cocaine together. Over the next ten years, they had four children
together. Although neither Donald nor Polly were functioning well, the
children recall that Donald was the more stable parent - even during the
worst part of his life, he still managed to cook, clean, and make sure his
children went to school.
III.

Federal habeas proceedings

On July 9, 2002, Mr. Dallas filed a Petition for Writ of Habeas Corpus,
pursuant to 28 U.S.C. §2254, including the claims that counsel labored under
a conflict of interest and that counsel was ineffective in preparation for and
during the penalty phase of his trial. During the pendency of his petition, he
filed additional pleadings and supporting evidence.

14

On July 14, 2017, the district court, without holding a hearing, issued
its final judgment, denying all of Mr. Dallas’ claims.10 The Eleventh Circuit
granted a COA on the following issues:
(l) Whether defense counsel had a conflict of interest in violation of the
Eleventh Amendment to the United States Constitution, where counsel
was concurrently acting as a Deputy Attorney General;
(2) Whether trial counsel rendered ineffective assistance in violation of the
Eleventh Amendment to the U.S. Constitution at the penalty phase of
the trial by failing to conduct a reasonable mitigation investigation and
failing to uncover and present mitigation evidence; and
(3) Whether Claim (2) listed above is procedurally defaulted.
Having wound its way through the decades’ long labyrinth of state
post-conviction and federal habeas litigation, the first issue, trial counsel was
ineffective because he was laboring under a prohibitive conflict of interest,
was considered by the Eleventh Circuit. However, the court affirmed the
denial of relief on the claim finding: (l) “[i]n the absence of the joint
representation of codefendants, the appropriate legal standard is found in
Sullivan, which requires a showing that an actual conflict of interest
adversely affected defense counsel’s performance”, (2) the trial court
discharged its duty of inquiry adequately during a hearing held on March 7,
1995, and (3) Mr. Dallas failed to show that the conflict had any bearing on
counsel’s performance.

10 App. B.
15

When analyzing the second and third issues in the COA, the Eleventh
Circuit declined to reach the third issue, procedural default. It determined
that because the second issue, ineffective assistance of penalty phase counsel,
“fail[ed] on the merits”, the procedural bar was “of no moment.”11 The
Eleventh Circuit, like the district court, conducted its de novo review without
an evidentiary hearing and considering only the limited affidavits submitted
with the § 2254 petition. When reweighing the evidence, the Eleventh Circuit
declined to consider the majority of new mitigation evidence presented by Mr.
Dallas on the mitigating side of the scale.12 Instead, it grouped the new
evidence into themes and dismissed nearly all of it as cumulative.13
REASONS FOR GRANTING THE WRIT
This case meet all of this Court’s criteria for granting certiorari. The
questions presented are fundamental to the most sacred of constitutional
rights - the writ of habeas corpus. There is split among the circuit courts of
appeal and only this Court can resolve it. Further, the Court should review the
lower courts’ application of §2254(d)(l), as it directly conflicts with the relevant
decisions of this Court. The questions presented are important and recur
frequently.
I.

The writ should be granted so the Court can resolve the question of
how all federal habeas courts should analyze post-conviction
mitigation evidence for purposes of a Strickland prejudice analysis
on de novo review.

11 App. A at A-43.
12 Id.
13 Id. at 44.
16

The circuits are deeply divided about how to assess whether new post­
conviction mitigation evidence is merely cumulative of the evidence that was
presented at trial. Here, the Eleventh Circuit entrenched that divide,
applying a rule that forecloses the possibility of a Strickland prejudice
determination when the new evidence and the trial evidence are broadly
thematically similar, despite material differences in the quality, quantity,
and specificity between the new and the old. In the process, that court shortcircuited the holistic analysis that Strickland requires and unreasonably
withheld penalty phase relief from Mr. Dallas who was clearly prejudiced by
his counsel’s deficient performance. This Court’s review is warranted to
resolve the well-established conflict among the circuits regarding when
omitted mitigation evidence is cumulative of evidence presented at trial.
A. The decision below conflicts with decisions ofother courts of
appeals.
The Eleventh Circuit’s decision in this case conflicts with United
States Supreme Court decisions and its sister circuits - and is of exceptional
importance! therefore this Court should grant review. The Eleventh Circuit’s
test for assessing prejudice under Strickland places that court on the
majority side of a meaningful and entrenched 4-3 circuit split. In the
Eleventh Circuit, if new mitigation evidence (that trial counsel improperly
failed to present during the penalty phase of a capital case) concerns the
same theme as old evidence (that counsel actually presented to the jury

17

during that phase), the new evidence is necessarily cumulative and cannot
establish prejudice. Under the Eleventh Circuit’s test, that is true regardless
of whether the omitted evidence is more detailed, more extensive, or more
persuasive than the penalty phase evidence that the jury actually heard. The
Fifth, Sixth, and Eighth Circuits agree. But the Third, Seventh, and Ninth
Circuits have taken the opposite approach, holding that new mitigation
evidence, even where it concerns the same subject matter as penalty phase
evidence, is not cumulative if it is of greater quality and that counsel’s failure
to present that evidence therefore can establish prejudice.
The Eleventh Circuit has consistently held that “evidence presented in
postconviction proceedings is ‘cumulative’ or ‘largely cumulative’ to or
‘duplicative’ of that presented at trial when it tells a more detailed version of
the same story told at trial or provides more or better examples or amplifies
the themes presented to the jury.”14

14 Tanzi v. Sec’y, Fla. Dep’t of Corr., 772 F.3d 644, 660 (llth Cir. 2014)
(quoting Holsey v. Warden, 694 F.3d 1230, 1260-1261 (llth Cir. 2012)); see
Holsey, 694 F.3d at 1263 (holding that the post-conviction evidence was
cumulative because it “concerned the same ‘subject matter [as] the evidence
actually presented at sentencing’ ” (quoting Beuke v. Houk, 537 F.3d 618,
645 (6th Cir. 2008) (alteration in Holsey))', Pooler v. Sec’y, Fla. Dep’t of Corr.,
702 F.3d 1252, 1276 (llth Cir. 2012) (rejecting prejudice claim where the
“new” evidence of the petitioner’s good character and military service was
cumulative of that presented at trial); Rose v. McNeil, 634 F.3d 1224, 1243
(llth Cir. 2011) (“Obviously, a petitioner cannot satisfy the prejudice prong of
the Strickland test with evidence that is merely cumulative of evidence
already presented at trial.”); Boyd v. Allen, 592 F.3d 1274, 1297-98 (llth Cir.
2010) (finding that much of the evidence presented by the petitioner during
post-conviction proceedings “was in some measure cumulative” of the trial
18

The Fifth Circuit has adopted a similarly narrowly definition of new
mitigation evidence to foreclose relief where “that [post-conviction] evidence
[is] ‘of the same genre as that presented to the jury at trial15 That circuit
hews to its precedent, even where new post-conviction evidence “undoubtedly
provide[d] more details” about petitioner’s background.16 In Busby v. Davis,
because some evidence of the defendant’s “unstable childhood” was presented
during the penalty phase, the Fifth Circuit concluded that far more powerful
evidence presented in post-conviction proceedings, which also concerned the
defendant’s troubled upbringing, was cumulative.17
The Sixth Circuit employs a similar analysis. That is, “the failure to
present additional mitigating evidence that is ‘merely cumulative’ of that
already presented does not rise to the level of a constitutional violation.”18

evidence because “much (although not all) of the ‘new’ testimony introduced
at the post-conviction hearing would simply have amplified the themes
already raised at trial”); Rhode v. Hall, 582 F.3d 1273, 1287 (llth Cir. 2009)
(“At best, the evidence would have been cumulative, providing more
information about [the petitioner’s bad childhood and early exposure to
drugs and alcohol.”).
15 Busby v. Davis, 925 F.3d 699, 726 (5th Cir. 2019), cert, denied, 140 S. Ct.
897, 205 L. Ed.. 2d 470 (2020).
™ld.
17 Id.', see Trevino v. Davis, 861 F.3d 545, 550 (5th Cir. 2017) (holding that
expert opinion and diagnosis of fetal alcohol spectrum disorder (FASD)
presented during post-conviction proceedings was cumulative of penalty
phase evidence, because “trial counsel presented a mitigation witness,
[defendant’s] aunt, who covered his mother’s alcohol problems”); Parr v.
Quarterman, 472 F.3d 245, 258 (5th Cir. 2006) (rejecting post-conviction
evidence as cumulative where jury heard some mitigation evidence, but it
was presented “perhaps not as effectively as it might have been”).
18 Broom v. Mitchell, 441 F.3d 392, 410 (6th Cir. 2006).
19

“[T]he new evidence that a habeas petitioner presents must differ in a
substantial way—in strength and subject matter—from the evidence actually
presented at sentencing.”19
Likewise, the Eighth Circuit has denied relief based on a
cumulativeness finding, even where the new mitigating evidence is more
plentiful, persuasive, or fills critical explanatory gaps. For instance, in
Anderson v. Kelley,20 the Eighth Circuit held that expert diagnoses of posttraumatic stress disorder (PTSD) was cumulative of penalty phase evidence,
although the PTSD diagnosis was first presented during post-conviction
proceedings.21 As Mr. Anderson’s habeas counsel argued, had it been
presented at trial, the PTSD diagnosis “would have better explained many of
the behaviors the trial experts attributed to antisocial personality disorder.”22
Besides, as a habeas expert opined, “to miss [Anderson’s] PTSD diagnosis is
to miss a huge part of what impinges on somebody’s behavior, their internal
world, and to link all of that to the etiology, which is trauma.”23 Nonetheless,

19 Pike v. Gross, 936 F.3d 372, 379 (6th Cir. 2019), cert, denied, 141 S. Ct. 86,
207 L. Ed. 2d 171 (2020); Clark v. Mitchell, 425 F.3d 270, 286 (6th Cir. 2005)
(“Our cases reject a requirement that any later-identified cumulative
mitigating evidence must have been introduced in order for counsel to be
effective.”).
20 Anderson v. Kelley, 938 F.3d 949, 958 (8th Cir. 2019), cert, denied sub nom.
Anderson v. Payne, 141 S. Ct. 273 (2020).
21 Id. at 958.
22 Brief of Petitioner at 28, Anderson v. Dir., Ark. Dep’t of Corn, 2018 WL
5927515 (8th Cir. June 12, 2018) (No. 17-2456).
23 Id.
20

because trial counsel presented some evidence about trauma relevant to
PTSD, the Eighth Circuit concluded that the omission of the PTSD diagnosis
was cumulative and could not support a prejudice determination.24
However, in the Third, Seventh, and Ninth Circuits, omitted evidence
is not cumulative if there are material differences in quality or quantity
between it and similar penalty phase evidence.
The Third Circuit has held new evidence is not cumulative and
“prejudice may exist where but for counsel’s errors, evidence could have been
introduced ‘that was upgraded dramatically in quality and quantity even
where that evidence supports the same mitigating factor pursued at trial.”’25
Put differently, the Third Circuit agrees that a proper Strickland analysis
forbids equating “paltry” sentencing evidence with “expanded” post-conviction
evidence, especially where sentencing evidence left the jury with a false or
incomplete impression about petitioner’s background.26 In Bond, concluding
that “the two sets of testimony brook no comparison,” the Third Circuit noted:
The first left the impression that Bond came from a supportive (if poor)
family but went on a crime spree after the type of disappointments
many people face in life. The second showed that he had grown up in
an extraordinarily dysfunctional environment rife with abuse and

24 Anderson v. Kelley, 938 F.3d at 958 (“We agree with the district court that
[defendant’s] counsel may have ‘missed the label •k k k but they told the
story.’”).

25 AbdukSalaam v. Secy ofPa. Dep’t of Corr., 895 F.3d 254, 269 (3d Cir.
2018); Bond v. Beard, 539 F.3d 256, 291 (3d Cir. 2008), as amended (Oct. 17,
2008).
26 Bond, 539 F.3d at 291.
21

neglect. The penalty phase testimony may have suggested some
difficulties during Bond’s youth, but this does not prevent relief.
In Griffin v. Pierce, the Seventh Circuit arrived at a similar conclusion,
finding that although some mitigating evidence had been presented at trial
through a pre-sentence report, “the report was an incomplete and at times
inaccurate reflection of Griffin’s tragic personal history.”27 The omitted
evidence included evidence of “Griffin’s father’s alcoholism and abusiveness,”
his mother’s neglect, his mental health diagnoses, his suicide attempts and
his good acts.28 As a result, it found that this new mitigation evidence was
inherently mitigating and not merely cumulative.29 Thematic similarity
between the post-conviction and penalty phase evidence did not control the
outcome in Griffin. Nor did it dictate the result in Pruitt v. Neal30 or
Stevens v. McBride, 31 where petitioners presented new, more persuasive
evidence of mental health - a theme previously raised at trial.

27 622 F.3d 831, 845 (7th Cir. 2010).
28 Id. at 844-45.
29 Id. at 845.
30 788 F.3d 248, 273-75 (7th Cir. 2015) (explaining that the post-conviction
and penalty phase testimony was not simply a “battle of the experts”).
31 Stevens v. McBride, 489 F.3d 883, 887 (7th Cir. 2007), as amended on
denial ofreh’g andreh’g en banc{Aug. 28, 2007) (acknowledging that mental
health evidence was presented at trial, but concluding that “[c]ompetent
evidence of [defendant’s] mental illness would have strengthened the general
mitigation evidence presented by defense counsel concerning [defendant’s]
difficult background by focusing the jury on the concrete results of years of
. abuse”).
22

The Ninth Circuit has also rejected the sort of truncated prejudice
analysis that the Eleventh Circuit endorsed in Mr. Dallas’ case. It has held
that a defendant was prejudiced when, “[although [counsel] introduced some
of [the defendant’s] social history, he did so in a cursory manner that was not
particularly useful or compelling.”32
B. The Strickland prejudice analysis requires a holistic evaluation of
mitigating evidence,' the decision below is wrong.
The Eleventh Circuit decided that Mr. Dallas failed to establish
Strickland prejudice because the mitigation evidence presented in post­
conviction was cumulative, and did no more than amplify the same themes
alluded to in evidence presented at trial. Relying on Cindy Knight’s
statement that her childhood “was hell”, and little else, the Eleventh Circuit
held that the evidence at trial “amply painted a broad picture of Donald
Dallas’ life: an abusive childhood, violence, poverty, lack of guidance and role
models, and substance abuse from an early age into adulthood.”33 In doing so,
it overlooked material facts that would have swayed at least one juror who
voted for death to render a life verdict.

32 Stankewitz v. Woodford, 365 F.3d 706, 724 (9th Cir. 2004); Stankewitz v.
Wong, 698 F.3d 1163, 1166 (9th Cir. 2012) (concluding that detailed post­
conviction evidence illustrating the defendant’s “deprived and abusive
upbringing, potential mental illness, [and] long history of drug use” was not
cumulative of “meager” evidence concerning the same topics presented during
the penalty phase); But see Moormann v. Ryan, 628 F.3d 1102, 1113 (9th Cir.
2010).
33 App. A. at A-56.
23

The Eleventh Circuit’s “themes” analysis directly contradicts the
prejudice analysis set forth in Strickland and a long line of precedent from
this Court dictating how to assess whether counsel’s deficient performance
prejudiced a defendant.34 Instead of excluding evidence that it arbitrarily
designated to certain themes, the Eleventh Circuit was required to consider
both the initial mitigation evidence and the new mitigating evidence “as a
whole.”35 Then, the Eleventh Circuit should have asked “whether there is a
reasonable probability that, [considering the evidence as a whole], the
sentencer . . . would have concluded that the balance of aggravating and
mitigating circumstances did not warrant death.”36 The presentation of a
superficial mitigation case, as happened here, does not render harmless
counsel’s constitutionally deficient performance.37 By assigning all of the new
evidence arbitrary themes, the Eleventh Circuit undermined the entire
purpose of Strickland to determine whether the penalty phase was
fundamentally fair.38

34 See, e.g., Williams v. Taylor, 529 U.S. 362, 397 (2000); Wiggins v. Smith,
539 U.S. 510, 534, 538 (2003); Porter v. McCollum, 558 U.S. 30, 40 (2009);
Sears v. Upton, 561 U.S. 945, 955 (2010); Andrus v. Texas, 140 S. Ct. 1875,
1887 (2020).
35 Wiggins, 539 U.S. at 538.
36 Strickland, 466 U.S. at 695.
37 See Sears, 561 U.S. at 954 (“We have never limited the prejudice inquiry
under Strickland to cases in which there was only little or no mitigation
evidence presented.”).
38 Strickland, 466 U.S. at 696.
24

To show Strickland prejudice, Mr. Dallas must establish only “that
there is a reasonable probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.” 39 “To assess that
probability, a court must consider ‘the totality of the available mitigation
evidence—both that adduced at trial, and the evidence adduced in the habeas
proceeding’ — and ‘reweigth] it against the evidence in aggravation.’”40
This Court has explained that determining whether such a “reasonable
probability” exists entails a “probing and fact-specific analysis” of all
mitigating evidence.41 And it has consistently rejected attempts to
“truncateD” that prejudice inquiry.42 For instance, iii Sears, this Court
rejected a state court’s rule that a petitioner cannot show prejudice unless
counsel presented “little or no mitigation evidence” at trial.43 The Court
explained that “[w]e certainly have never held that counsel’s effort to present
some mitigation evidence should foreclose an inquiry into whether a facially
deficient mitigation investigation might have prejudiced the defendant.”44
The Eleventh Circuit’s analysis skirts this Court’s requirement that
the reviewing court must reweigh all of the mitigating evidence (both the new
evidence and the evidence presented at trial) against the aggravating

39 Id. at 694.
40 Porter v. McCollum, 558 U.S. at 41.
41 Sears, 561 U.S. at 955-56.
42 Id. at 955.
43 Id. at 954-55.
44 Id. at 955.
25

evidence, when conducting de novo review.45 The Eleventh Circuit’s analysis
avoids a true reweighing because evidence can easily be reclassified to fit
several different themes and thus disregarded as cumulative. That is what
the Eleventh Circuit did to rationalize affirming Mr. Dallas’ sentence. This
error is best illustrated in the chart below. At trial none of the themes listed
in red (and in the left column) were presented to the jury. Counsel presented
only minimal evidence of the other factors listed in grey (to the right).

Physical abuse
Sexual abuse
Disgusting living conditions
Basic needs not met
Lack of schooling
Mother put her needs first
Not taught self-care
Denial of medical care
Lack of positive role models
Childhood exposure to sex
Generational sexual abuse
Genetic predisposition to
addiction
Cognitive disorders

Mother’s mental instability
Childhood exposure to domestic
violence
Food insecurity
Childhood exposure to substance
abuse
Donald’s good character
Bad influence of co-defendant
Damaging effects of cocaine

When summarized, it is clear that the Eleventh Circuit conflated the
evidence presented at trial and the evidence presented for the first time in
federal habeas when concluding that Mr. Dallas’ post-conviction evidence was

45 Wiggins, 539 U.S. at 538.
26

merely cumulative and thematic of what had been presented to the jury. For
example, the Eleventh Circuit concluded that the jury heard that Donald was
abused as a child.46 Yet, there is not one word of testimony during the
penalty phase indicating that Donald was a victim of physical abuse.
Nonetheless, the Eleventh Circuit cited testimony from Cindy.47
Her minimal testimony does not even begin to describe the severe
physical abuse Donald suffered at the hands of his parents. Had counsel
provided effective representation, he would have introduced evidence to show
James frequently beat Donald. Elaine hit Donald and his siblings with her
hands, bats, and belt buckles. She kicked the children as they lay prone on
the floor. She would pick Donald up by one arm and lash him repeatedly with
a belt. She even had a cattle prod-type device that she used to shock Donald
and his siblings. The simple phrase “it was hell”, or Cindy’s response that she
herself was a victim of “beatings” does not tell this story.
The Eleventh Circuit grouped several other facts into Cindy’s
statement “it was hell.” Based on this statement alone, the Eleventh Circuit
dismissed the new evidence that Donald grew up in squalor.48 The post­
conviction affidavits showed a far more detailed and horrifying picture of
Donald’s living environment. Trial counsel did not elicit any testimony
regarding the unsanitary living conditions in which Mr. Dallas was raised.

46 App. A at A'51.
47 Id. at 52.
48 Id. at 53.
27

Further, the Eleventh Circuit completely ignored post-conviction
evidence that Donald was not provided with medical care, even though this
evidence did not fit into any of the themes identified and, instead dismissed
as cumulative. This cannot be cumulative when there was not one word in
the trial transcripts about doctors or medical care.
On top of this, the Eleventh Circuit inexplicably dismissed the
majority of Dr. Ken Benedict’s testimony as cumulative when in truth, the
jury never heard how the abuse Donald suffered psychologically damaged
him and compromised his executive functioning. As a result, the Eleventh
Circuit did not include Donald’s depression, anxiety, low self-esteem, shame,
and cognitive difficulties in its reweighing.
The Eleventh Circuit was only able to conclude that “the new
mitigating evidence contained in the 2007 affidavits ‘would barely have
altered the sentencing profile presented’ at Mr. Dallas’ trial” because it
ignored the majority of the evidence in those affidavits.49 This error led to the
Eleventh Circuit only reweighing the allegations of sexual assault and the
diagnosis of ADHD against the aggravating evidence.50
The flaw with the Eleventh Circuit’s analysis is clear upon review of
Andrus v. Texas.51 There, this Court held that counsel was deficient for

49 Id. at 55. (quoting Strickland, 466 U.S. at 700).
50 Id. at 49.
51 140 S. Ct. 1875 (2020).
28

failing to uncover mitigation evidence and directed the court below to reweigh
the mitigating/aggravating circumstances and include all of the new evidence
on the mitigating side of the scale.52
Had this Court applied the analysis used by the Eleventh Circuit, the
outcome of Andrus would have been different. Breaking down the facts, as set
forth in Andrus, into “themes”, as the Eleventh Circuit did here, reveals that
the following themes were raised at trial:53
•
•
•
•
•
•

Exposure to drugs at a young age
Drug use early in life
Effects of drug use on adolescent brains
Parental neglect and lack of role models
Evidence of good character
Remorse
Post-conviction counsel presented the same themes but in far more

detail.54 The witnesses at the post-conviction hearing told a more descriptive
story of Andrus’ tragic life than was told at trial, focusing on his exposure to
drugs and parental neglect.55 The Supreme Court characterized the new
details to support the old themes presented at trial as a “tidal wave” of
mitigation evidence.56 Even though it is apparent from the facts that the
details presented at the post-conviction hearing were related to themes raised

52 Id.
53 Id.
54 Id.
55 Id.
56 Id.

at 1887.
at 1878-1879.
at 1879-1880.
at 1887.
29

at trial, the Court was clear that all of these details must be considered when
the court below reweighs the mitigating and aggravating circumstances.57
The Eleventh Circuit’s decision to dismiss any evidence that fell within
a theme presented at trial is in direct conflict with this Court’s precedent.
This Court has made clear that it “certainly [has] never held that counsel’s
effort to present some mitigation evidence should foreclose an inquiry into
[prejudice]. To the contrary, [it has] consistently explained that the
Strickland inquiry requires precisely the type of probing and fact-specific
analysis that the . . . court failed to undertake below.”58
Finally, when the Eleventh Circuit conducted its reweighing it left out
a key fact: the evidence at trial was already enough to convince one juror to
vote for life.59 The Eleventh Circuit stressed that additional mitigation
evidence was unlikely to change the balance because “[t]he jury found that
Dallas intended to inflict unimaginable cruelty.”60 But the brutality of the
crime alone does not foreclose a finding that the mitigation outweighs the
aggravation. The ‘“brutality of the crime’ rationale is simply contrary to [this
Court’s] directive in case after case that, in assessing prejudice, a court must

57 Mat 1879-1881, 1887.
58 Sears, 561 U.S. at 955.
59 See Jenkins v. Comm., Ada. Dep’t of Corn, 963 F.3d 1248,. 1270 (llth Cir.
2020) (“Given that the jury here recommended a sentence of death by the
narrowest possible vote, 10 to 2, Jenkins need establish only ‘a reasonable
probability that at least one juror would have struck a different balance’
between life and death.”).
60 App. A at A-54.
30

‘consider the totality of the available mitigation evidence . . . and reweigh it
against the evidence in aggravation.”’61 This weighing is even more important
when one juror already found the mitigating circumstances outweighed the
aggravating circumstances based on the barebones information presented at
trial.
II.

The writ should be granted so the Court can resolve the important
federal question: Can a federal habeas court determine that a state
court decision was reasonable as required by 28 U.S.C. § 2254(d)(1)
based on later-decided United States Supreme Court precedent?
The cornerstone of habeas corpus reform, embodied in 28 U.S.C. §

2254(d), continues to be construed in a way which severely limits the avenues
of redress for a person sentenced to death. This Court has concluded that the
AEDPA “stops short of imposing a complete bar on federal-court relitigation
of claims already rejected in state proceedings.”62 Indeed, it is often quoted in
federal habeas litigation, that “[i]f this standard is difficult to meet, that is
because it was meant to be.”63
This is all the more reason for this Court to hold federal habeas courts
to the same standard it holds federal habeas petitioners; namely, that a
§2254(d)(l) reasonableness analysis is limited to the record before the state
court and the clearly established federal law in existence at the time of the
state court decision. In other words, if a federal habeas petitioner is limited

61 Ayestas v. Davis, 138 S. Ct. 1080, 1100 (2018) (Sotomayor, J., concurring).
62 Harrington v. Richter, 562 U.S. 86, 103 (2011).
63 Id.
31

in the law and evidence he may present in support of his claim, so too, should
the reviewing court.
The instant conflict of counsel claim was decided on direct appeal of
Mr. Dallas’ conviction and sentence in 1997.64 The Eleventh Circuit
acknowledged the operative decision for federal habeas review was the 1997
opinion.65 However, the Eleventh Circuit justified its reasonableness finding
based on federal law decided in 2000—three years later.66
Time and again, this Court has made clear,' AEDPA is backward­
looking.67 Under § 2254(d)(1), “clearly established Federal law, as determined

64 App. A. at A-18.
65 App. A. at A-19.
66 The Eleventh Circuit also cited and relied on the testimony of trial counsel
from a post-conviction hearing in 2001 (on June 21, 2001, an evidentiary
hearing was held in Mr. Dallas’ state post-conviction proceedings where trial
counsel was, questioned about the conflict) and a pre-trial hearing transcript
not in the record until 2012 (on direct appeal, there was no hearing transcript
in the record. It was not until 2012—five years later— that the court reporter
was located and transcribed the hearing on the motion to withdraw. This
transcript -three pages long and devoid of any questions from the court— did
not become part of the record until federal habeas proceedings). App. A at 3638.

67 Greene v. Fisher, 565 U.S. 34, 36 (2012)(“clearly established Federal law”
includes decisions of this Court that are announced before the last
adjudication of the merits in state court but before the defendant’s conviction
becomes final); Cullen v. Pinholster, 563 U.S. 170, 182 (201l)(§ 2254(d)(1)
requires federal courts to “focu[s] on what a state court knew and did,” and to
measure state-court decisions “against this Court's precedents as of‘the time
the state court renders its decision.’”); Lockyer v. Andrade, 538 U.S. 63, 72
(2003)(“In other words, ‘clearly established Federal law’ under § 2254(d)(1) is
the governing legal principle or principles set forth by the Supreme Court at
the time the state court renders its decision.”); see Williams v. Taylor, 529
U.S. 362, 412 (2000)(the phrase “clearly established Federal law, as
32

by the Supreme Court of the United States,” includes only this Court’s
decisions as of the time of the relevant state-court adjudication on the
merits.68 Yet, repeatedly, federal habeas courts apply this limiting standard
to petitioners when they themselves use later-decided federal law to
rationalize a state court’s decision as reasonable. In particular, the Eleventh
Circuit has determined that intervening precedent “does, however, allow us
to consider the most recent guidance from the Court on the application of its
precedent to the varied factual scenarios that come before us, which is of
significant value.”69 This Court should hold that this practice must end.
A.

Motion to Withdraw

At trial, Mr. Agricola’s loyalty was to the State of Alabama and not Mr.
Dallas! he, himself, has said so. Mr. Agricola believed concurrent
representation of Mr. Dallas and the State created a conflict which would
affect his representation and ultimately deprive Mr. Dallas of his Sixth

determined by [this] Court” refers to the holdings, as opposed to the dicta, of
this Court’s decisions as of the time of the relevant state-court decision.).
68 Greene, 565 U.S. at 38.
69 Newland v. Hall, 527 F.3d 1162, 1200 (llth Cir. 2008). See, e.g., Stewart v.
Sec'y, 476 F.3d 1193, 1214 n. 29 (llth Cir.2007) (distinguishing Rompilla,
although state habeas proceeding concluded before Rompilla was decided);
Callahan v. Campbell, 427 F.3d 897, 926, 934-35 (l 1th Cir.2005) (discussing
Williams and Wiggins, although Callahan's state habeas proceeding
concluded before these cases were decided); Crawford v. Head, 311 F.3d 1288,
1314-16 (llth Cir.2002) (discussing Williams, although it was decided
following the conclusion of Crawford's state habeas proceeding).
33

Amendment right to counsel. He moved to withdraw based on this conflict.
Counsel provided the court with a sworn affidavit which read:
It is my opinion that the Defendant’s constitutional rights will
be violated if he is forced to accept me as his defense attorney
because of the fact that, as a Deputy Attorney General, I am by
statute subject to the control and authority of the Attorney
General. On appeal, the Attorney General will represent the
State of Alabama. On appeal from a conviction, I will have no
choice but to raise this issue as a ground for reversal.70
Nonetheless, the trial court denied the motion to withdraw. The motion, the
affidavit, and the order denying relief were the sum total of information
before the ACCA on this issue during direct appeal.
B.

Direct Appeal

On March 21, 1997, Mr. Dallas’ conviction and sentence were affirmed.
At the time the state court rendered its decision, the clearly established
federal law relevant to Mr. Dallas’ conflict of interest claim was Holloway v.
Arkansas, which held that reversal is automatic where a trial court fails to
adequately inquire into a potential conflict of interest following counsel’s
objection.71The ACCA denied relief on Mr. Dallas’ conflict of interest claim
finding: (l) the trial court denied the motion without a hearing, and (2)
pursuant to Cuyler v. Sullivan72 Mr. Dallas was required to show that “an

70 App. D.at 1-2.
71 435 U.S. 475 (1978) (“a rule requiring a defendant to show that a conflict of
interests—which he and his counsel tried to avoid by timely objections to the
joint representation—prejudiced him in some specific fashion would not be
susceptible of intelligent, evenhanded application.”).
72 446 U.S. 335 (1980).
34

actual conflict of interest adversely affected his lawyer’s performance.”73 The
ACCA opinion did not reference, distinguish, or even cite Holloway. Applying
only Sullivan, the court determined that Mr. Dallas failed to show an actual
conflict or prejudice, despite the undisputed facts that trial counsel objected
to a potential conflict of interest and the trial court did not conduct hearing
on the issue.74 This was the state court determination to which the Eleventh
Circuit afforded AEDPA deference.
C.

The Eleventh Circuit opinion

Though the state court applied Sullivan, Mr. Dallas argued that, in
fact, the clearly established federal law applicable to his claim at the time of
his direct appeal was Holloway. The most significant difference between
Holloway and Sullivan is whether trial counsel was forced to represent the
defendant over pre-trial objection. If there was an objection and the trial
court did not make a proper inquiry into a known potential conflict, the
petitioner need not show that the conflict had an actual effect on his counsel,
and reversal is automatic. Those are the facts in Holloway. However, if there
was no pre-trial objection, then reversal is only warranted when a petitioner
shows an actual conflict. Those are the facts in Sullivan. The primary factor
determining whether Holloway or Sullivan applies is whether a pre-trial
objection was made.

73 Dallas v. State, 711 So. 2d 1101, 1111 (Ala. Crim. App. 1997).
74 Id.
35

Twenty years after Mr. Dallas’ direct appeal, the Eleventh Circuit
found the ACCA’s determination of this claim reasonable by- (l) by analyzing
Mickens v. Taylor15 as limiting Holloway’s automatic reversal rule to cases
only involving co-defendants (making it inapplicable to Mr. Dallas’ case)(2)
relying on the testimony given during Mr. Dallas’ post-conviction proceedings
— not available during direct appeal - to find that trial counsel “weren’t
concerned about a conflict”, and (3) finding the trial court “adequately
discharged its duty” during its inquiry at a hearing on the motion to
withdraw—a hearing the ACCA found never occurred.76 Putting aside a
reliance on facts outside the state court record, the fundamental problem
with this analysis is that Mickens - and its recharacterization of Holloway as
being limited to cases involving co-defendants— was not before the state
court and, therefore, cannot be considered when conducting a §2254(d)(l)
reasonableness analysis.
Though Mickens was decided three years after the ACCA denied relief
on the claim that trial counsel labored under a conflict of interest, the
Eleventh Circuit relied solely on Mickens to find that the ACCA properly
applied Sullivan instead of Holloway to Mr. Dallas’ claim.77 During oral
argument, the Eleventh Circuit stated,

76 535 U.S. 162 (2002).
76 Inexplicably, the Court also cited the ACCA opinion containing the quote
“[t]he trial court denied the motion without hearing.” App. A. at A-19.
77 Dallas v. Warden, 964 F.3d 1285, 1303 (llth Cir. 2020).
36

Let me tell you the problem that I’m having with the argument [that
Holloway instead of Sullivan applies]. . . Some years later, the
Supreme Court in Mickens told us what they understood Holloway to
mean. And. ., writing for the majority, Justice Scalia wrote the
following, and tell me how we deal with it. He says and I quote,
‘Holloway thus creates an automatic reversal rule only where defense
counsel is forced to represent codefendants over his timely objection
unless the trial court has determined that there is no conflict.’ Seems
pretty clear that the Supreme Court took Holloway to be confined to,
(l) a circumstance where one lawyer represents co-defendants,
essentially in the same case whether they are tried together or not,
and (2) there’s got to be an objection. And in the absence of both of
those circumstances, you’re back with a different rule of the game
under Cuyler [ v. Sullivan\. . . I’m hard pressed to see how I get around
that.78
In its opinion denying Mr. Dallas relief, the Eleventh Circuit reiterated:
In Mickens, the Supreme Court explained the key differences
between Holloway and Sullivan.. . . [T]he clarity we find in Mickens is.
. . Holloway ‘creates an automatic reversal rule only where defense
counsel is forced to represent codefendants over his timely objection.”79
But this “clarity” found in Mickens—and its narrow interpretation of
Holloway—is not found in Holloway, Sullivan, or any other precedent in
existence at the time the ACCA rendered its decision. Indeed, pre-Mickens
circuit court cases applying Holloway outside the codefendant context
demonstrate the opposite— that clearly established law at the time of Mr.
Dallas’ direct appeal extended Holloway’s automatic reversal rule to cases

78 Oral Argument at 2:09, Dallas v. Warden, 964 F.3d 1285 (llth Cir. 2020)
(No. 17-14570), httpsV/www.call.uscourts.gov/oral-argument-recordings.
79 Dallas v. Warden, 964 F.3d 1285, 1303 (llth Cir. 2020) (quoting Mickens v.
Taylor, 535 U.S. at 168, 122 S. Ct. 1237) (emphasis in original).
37

outside the co-defendant context.80 Regardless of whether the Eleventh
Circuit’s reading of Mickens as it relates to Holloway and Sullivan is correct,
the Eleventh Circuit should not have relied on Mickens in analyzing the
reasonableness of the ACCA’s holding, rendered three years before the
existence of the “clarity” found in Mickens.
Had the ACCA or the Eleventh Circuit properly applied Holloway to
Mr. Dallas’ claim, he would have been entitled to a presumption of prejudice
and automatic reversal. Contrary to the Eleventh Circuit’s finding that the
court conducted an adequate inquiry on the conflict of interest issue in a
hearing on the motion to withdraw, the ACCA found that no such hearing

80

See, e.g., Wood v. Georgia, 450 U.S. 261 (1981) (held that, absent objection,
a defendant must demonstrate that a conflict of interest actually affected the
adequacy of his representation.) United States v. Gallegos, 108 F.3d 1272,
1283 (10th Cir. 1997) (applying Holloway’s automatic reversal rule where a
trial court failed to conduct an inquiry into a potential conflict of interest
where counsel previously represented a witness that would be called by
codefendant in joint trial); Atley v. Ault, 191 F.3d 865, 870 (8th Cir. 1999)
(applying Holloway where counsel who represented petitioner charged with
drug-related crimes was pending appointment to county attorney’s office
where he would prosecute drug cases in cooperation with the same officers
that were witnesses in petitioner’s case); United States v. Rogers, 209 F.3d
139, 143-44 (2d Cir. 2000) (applying Holloway where defense counsel in a
drug conspiracy case was a former police commissioner); United States v.
Cook, 45 F.3d 388, 393 (10th Cir. 1995), abrogated on other grounds by Neill
v. Gibson, 278 F.3d 1044 (10th Cir. 2001) (“a defendant’s right to counsel free
from conflicts of interest ‘is not limited to cases involving joint representation
of codefendants ... but extends to any situation in which a defendant’s counsel
owes conflicting duties to that defendant and some other third person. . .
Although Holloway was a multiple representation case, the district court's
duty of inquiry arises whenever there is the possibility that a criminal
defendant's attorney suffers from any sort of conflict of interest.”).

38

took place. The ACCA did not have - and Eleventh Circuit should not have
considered— the three page transcript relating to the trial court’s handling of
the motion to withdraw due to the conflict. Based only on the information
available to the ACCA at the time of the appeal, the trial court did not
conduct any review — let alone an adequate one— into the potential conflict
raised numerous times by counsel’s clear and steadfast objection. Under
Holloway, reversal is automatic, as the petitioner is not required to show an
actual conflict or adverse performance.
III.

This case is a proper vehicle for the Court to resolve these issues.
Mr. Dallas’ case provides a proper vehicle for the Court to resolve these

issues because there is a split among circuits regarding the analysis of
mitigation evidence and it also presents an important question for all federal
habeas courts when conducting a § 2254(d)(1) analysis.
CONCLUSION
For the above reasons, this Court should grant this petition for writ of
certiorari.
Respectfully submitted,
Christine A. Freeman
Executive Director
Allyson R. duLac
Counsel ofRecord
Federal Defenders for the
Middle District of Alabama
817 S. Court Street
Montgomery, AL 36104
(334) 834-2099
Allyson_duLac@fd.org
39

APPENDIX

V

APPENDIX A

Opinion dated July 13, 2020
Donald Dallas v. Warden, State ofAlabama, et. al.,
United States Court of Appeals for the Eleventh Circuit
Case No.: 17-14570

Appendix A-1

Case: 17-14570

Date Filed: 07/13/2020

Page: 1 of 56

[PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 17-14570

D.C. Docket No. 2:02-cv-00777-WKW-SRW

DONALD DALLAS,
Petitioner - Appellant,
versus
WARDEN,

ATTORNEY GENERAL, STATE OF ALABAMA,
COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS,
Respondents - Appellees.

Appeal from the United States District Court
for the Middle District of Alabama
(July 13, 2020)
Before MARTIN, BRANCH and MARCUS, Circuit Judges.
MARCUS, Circuit Judge:

Case: 17-14570

Appendix A-2
Date Filed: 07/13/2020

Page: 2 of 56

On a hot July day in 1994, Donald Dallas and Carolyn (“Polly”) Yaw
hatched a plan to obtain money to buy crack cocaine. At a shopping center in
Prattville, Alabama, they chose their victim, 73-year-old Hazel Liveoak. As Mrs.
Liveoak loaded groceries into her car, Dallas and Yaw approached the vehicle.
They pushed her into the car and forced her to lie down on the floorboard. When
they discovered that she had only $10 in cash, they abducted her instead. They
drove her first about an hour away to the end of a dirt road in Greenville, Alabama,
where Dallas demanded Liveoak’s credit cards and put her in the trunk of the car.
Dallas and Yaw then drove back to the Am-South Bank in a K-Mart parking lot in
Montgomery, where they used her bank cards to withdraw money from an ATM.
As Yaw withdrew the money, Dallas sat on the trunk of the car and spoke
with the victim, who told him she had a heart condition. She also told him she had
a son Dallas could call who could release her from the car. She gave Dallas the
telephone number, but he didn’t write it down. He promised Liveoak that he
would call the police to make sure she was released unharmed, but he never did.
Instead, Dallas and Yaw called a cab and went immediately to a crack house to buy
drugs, and then to a motel to smoke crack all night. Meanwhile, Hazel Liveoak
struggled for hours to get free or call for help. She eventually succumbed to a
heart attack in the hot trunk of her own car.

2

Case: 17-14570

Appendix A-3
Date Filed: 07/13/2020

Page: 3 of 56

An Alabama jury convicted Dallas of capital murder, concluding that he
intended for Hazel Liveoak to die in that trunk. The trial court accepted the jury’s
11 to 1 recommendation for death and sentenced Dallas to die for the murder. His
convictions and sentence were affirmed on direct appeal, his state postconviction
petition was denied, and the United States District Court for the Middle District of
Alabama denied his federal habeas petition. We granted a certificate of
appealability limited to two issues: (1) whether Dallas received ineffective
assistance of counsel throughout his capital trial because his attorney was laboring
under a conflict of interest; and (2) whether Dallas received ineffective assistance
of counsel at the penalty phase of his capital trial because his attorneys failed to
adequately investigate and present mitigating evidence. The state court’s
determination that Dallas’s counsel was not encumbered by an actual conflict that
adversely affected his performance was neither contrary to nor an unreasonable
application of clearly established law; nor was it based on an unreasonable
determination of the facts. Nor, finally, has the petitioner established ineffective
assistance of counsel at the penalty phase. We affirm the judgment of the district
court and deny the petitioner habeas relief.
I.
At trial, overwhelming evidence, including the testimony of Dallas himself,
detailed the abduction and brutal murder of Hazel Liveoak. In addition to the basic
3

Appendix A-4
Case: 17-14570

Date Filed: 07/13/2020

Page: 4 of 56

facts we’ve recounted, the jury heard the gruesome details surrounding Liveoak’s
death. The evidence suggested she lived for a number of hours in the trunk of her
car, baking under the hot Alabama sun in July. The state medical examiner
testified that the autopsy he performed revealed that Mrs. Liveoak had bruising on
the right side of her head, the backs of both hands and wrists, and her right bicep,
as well as cuts on her palms, all of which were consistent with her banging on the
trunk lid to get out or call for help. He also observed that Liveoak had urinated
while confined in the trunk of the car. The medical examiner determined her death
by heart attack to be a homicide because, while she was functioning in her daily
life despite her heart disease, “she did not have the cardiac reserve to handle [the]
extremely stressful confines she was in, in a dark, hot, confined trunk of a car and
left there for hours, that her heart could not take that amount of stress.”
Moreover, according to the testimony of Dennis (“Tony”) Bowen, an
acquaintance of Dallas’s and Yaw’s, the two were bragging at the crack house
about their crime, explaining that they had left an old lady in the trunk of a car.
Bowen added that when he asked Dallas about it, Dallas said that he “hoped the
old lady would die.” The state also presented evidence at trial that Dallas had
abducted and robbed another elderly person, 80-year-old Wesley Portwood, from a
shopping center parking lot in Prattville just three days before kidnapping Mrs.
Liveoak. Portwood testified at trial. He said Dallas abducted him at knifepoint in
4

Appendix A-5
Case: 17-14570

Date Filed: 07/13/2020

Page: 5 of 56

his vehicle, drove to a remote area, and ordered Portwood out of the car. Dallas
told Portwood to lie down in the woods, and when Portwood questioned Dallas,
Dallas said he could either lay in the woods or be locked in the trunk of the car
instead. Portwood told Dallas that it was too hot to get into the trunk of the car and
that he would “smother to death in there.” Portwood chose instead to lay in the
woods and survived the robbery and abduction.
II.
A. Pretrial Appointment of Counsel
On February 1, 1995, Algert Agricola was appointed by a Montgomery
County Circuit Court judge to represent Dallas. The same day, Agricola was
\

separately appointed by Alabama’s attorney general for the limited purpose of
representing the Alabama Department of Mental Health and Mental Retardation in
an unrelated civil case in the Middle District of Alabama. The following month,
Agricola moved to withdraw as Dallas’s counsel. Agricola explained that because
of his appointment as a deputy attorney general, he was “subject to the authority of
the Alabama Attorney General who [would] represent the State of Alabama on
appeal from a conviction in [Dallas’s case].” Agricola told the state trial court that
he had conferred with the Disciplinary Commission of the Alabama State Bar
Association and had been advised that the Commission “[did] not believe there
exist[ed] a conflict under the Rules of Professional Conduct in [those]
5

Case: 17-14570

Appendix A-6
Date Filed: 07/13/2020

Page: 6 of 56

circumstances,” but Agricola maintained nevertheless that “the question of an
ethical conflict [was] entirely different from the question of whether [Dallas’s]
constitutional rights [were] violated by his being forced to accept the
representation by appointment of an attorney who also serve [d] as a Deputy
Attorney General.” He also submitted an affidavit explaining that it was his
opinion that Dallas’s constitutional rights would be violated by his appointment.
The trial court conducted a hearing and then denied the motion.
At the hearing, Agricola “represented] to the Court that if [he] were to stay
in this case that [he] would do [his] best for the defendant,” but that he believed
“the test [for conflict] [was] whether there [was] some potential that there might be
duality of representation.” He said he had discussed the matter with Dallas and
Dallas did not want his representation because of his concurrent status as a deputy
attorney general. After Agricola’s brief presentation, the trial judge rejected the
claim of conflict this way: “I know the argument you are making, but I don’t think
there is sufficient conflict of interest to prevent you from representing him. I am
going to follow the response of the Alabama Bar Association until this matter is
concluded.” Agricola, along with co-counsel Jeffery Duffey, who was appointed
in September 1995, represented Dallas throughout the trial. Agricola was
/

eventually replaced by appellate counsel on direct appeal.
B. The Guilt Phase Evidence Relevant to Mitigation
6

Case: 17-14570

Appendix A-7
Date Filed: 07/13/2020

Page: 7 of 56

Counsel did not deny Dallas’s involvement in the crime but focused instead
on his intent. In his opening statement, Agricola summed up the defense this way:
You have to know what happened to [Dallas] on that day and in the days
before that day, and you need to know about his entire life, because the first
tragedy in this case is clearly the death of Hazel Liveoak. But the second
tragedy in this case is the life of Donald Dallas.
Donald Dallas came from a broken home. You will hear that his parents were
divorced when he was about six years old. His father beat him. He went to
bars with his father before he was ten years old. He was ingesting
intravenously in his veins crystal methamphetamine when he was eleven years
old. He has constantly used drugs ever since. That is the life Donald Dallas
has had.
At the guilt phase, the defense called four witnesses: Rhonda Sue Chavers,
Dr. Guy Renfro, Susan James, and Donald Dallas himself. We detail this evidence
at some length because it formed much (although not all) of the defendant’s
mitigation evidence at the penalty phase.
Rhonda Sue Chavers, a friend of Dallas’s since he was a teenager, testified
that she was with Dallas on the morning of July 14, 1994. Dallas and Yaw had
slept at Chavers’s house on the night of the 13th, the day after Mrs. Liveoak’s
kidnapping. Chavers said she and Dallas were watching television in the morning
on the 14th and learned that Mrs. Liveoak had died. Chavers testified that Dallas
“cried” and “was worried” when they learned of her death, and told Chavers “that
he tried to get [an acquaintance] to take him back over there, but [he] wouldn’t.”

7

Case: 17-14570

Appendix A-8
Date Filed: 07/13/2020

Page: 8 of 56

The defense also called Dr. Guy Renfro, a licensed clinical psychologist in
private practice who, after being appointed by the state trial judge, evaluated
Dallas for competency to stand trial. Renfro had a contract with the Taylor Hardin
Secure Medical Facility, which was affiliated with the state’s department of mental
health. Renfro explained that his evaluation of Dallas included Dallas’s mental
state at the time of trial and at the time of the murder. Renfro testified that this
assessment required him to review information about the crime, meet with Dallas,
administer various psychological tests, and obtain information about Dallas’s
background. He told the jury that Dallas had a very long history of substance
abuse, beginning with the consumption of alcohol at age seven or eight, marijuana
at twelve or thirteen, and the intravenous use of crystal methamphetamine and
other addictive drugs at thirteen or fourteen. According to Dr. Renfro, Dallas’s
drug abuse had been continual since he was twelve or thirteen. Renfro testified
that drug abuse at so young an age makes it more difficult for an addict to quit and
impairs the development of social, problem-solving, and coping skills, making it
even more likely that the user will resort to more drugs and alcohol to manage
stress.
Turning to Dallas’s drug of choice at the time of the murder, Dr. Renfro
explained that crack cocaine, while not physically addictive, produces intense
psychological addiction and cravings; that users develop a tolerance for the drug,
8

Case: 17-14570

Appendix A-9
Date Filed: 07/13/2020

Page: 9 of 56

requiring them to obtain more and more to achieve the same effect; and that this
never-ending cycle of needing more of the drug contributes to the addiction.
Renfro opined that the psychological cravings for the drug will make a user very
uncomfortable, and that if a person wants the drug he will do whatever it takes to
get it. At the time of the homicide, Dallas “was binging on the drug,.. . want[ed]
more and more of the drug, and ... he was in a process of disregarding a lot of
other circumstances to do whatever he could to obtain money for that drug.”
Renfro said that Dallas and Yaw “were binging on [crack] cocaine for about twelve
days, that [Dallas] was oblivious to time, that he was not even aware that he had
had a birth date during that time, that they were just in the process of acquiring
money to purchase cocaine, using the cocaine, and going out and getting whatever
money he needed to do more cocaine.” Dr. Renfro also explained that “there is
some desperation that builds in when people are using large volumes of cocaine,
the way they are more prone[] to use violence and be more confrontational.” The
primary goal of the crack addict is simply to get more.
Renfro also testified that Dallas was of below-average intelligence, and that
he was not insane at the time of the crime — that is, Dallas knew right from wrong.
Renfro told the jury that when Dallas described learning that Mrs. Liveoak had
died, Dallas “became tearful,” “seemed to be remorseful that she had died,” and
said that it was not his intent to kill her.
9

Case: 17-14570

Appendix A-10
Date Filed: 07/13/2020

Page: 10 of 56

The defense mitigation consultant, Susan James, testified that the legal
system treats crack cocaine more seriously than powder cocaine, imposing far
greater penalties for crack cocaine offenses, a “recognition that crack cocaine is a
more dangerous substance than powder cocaine” because of its addictiveness,
popularity, and affordability.
Finally, Dallas testified. He described at length a deeply abusive childhood
and a thoroughly dysfunctional family. He said he dropped out of school in the
sixth grade and began a pattern of drug abuse at a very early age. His family did
not go to church, he received no guidance on telling right from wrong, and he was
left to his own devices as a kid. Dallas explained that his stepfather would sneak
him drinks of beer and whiskey in bars when he was ten or eleven; that he began
smoking marijuana, frequently, at age nine; and that he skipped school and stole
money from his mother to buy drugs. After moving to Prattville, Alabama, Dallas
began injecting cocaine at thirteen or fourteen when a friend, whose father was an
addict, introduced him to the drug. Around that time, Dallas abused other drugs,
including crystal methamphetamine and Quaaludes. Sometime in 1992, Dallas
discovered crack, which he likened to “mind control” and explained that it “just
tells you to get more, do it again.”
Dallas said that about two weeks before the crime, he and Yaw began using
crack cocaine, although he had previously quit the drug. By the end of the second
10

Case: 17-14570

Appendix A-11
Date Filed: 07/13/2020

Page: 11 of 56

day of their crack binge, Dallas had pawned everything in their home to pay for
crack. Then the two began shoplifting to feed their habit. Dallas explained that
“[c]rack is a drug that you want to get off of. You talk about getting off of it, but
you don’t ever really succeed in it. I feel like there is only two ways to get off
crack, and one is death and the other one is damned near to it.”
Dallas described the days leading up to the murder of Mrs. Liveoak as being
a time of “drifting” and trading stolen goods for crack. He recounted what
happened when he and Yaw saw Mrs. Liveoak in a shopping center in Prattville.
Dallas pushed her into her car while she was loading her groceries, and then drove
off. Liveoak was “scared” at first, but as they were driving, the two began to talk.
He told Liveoak he was a crack addict, and she asked if he was a Christian,
whether he “believe[d] in the Lord,” and if he wanted help. She then prayed with
Dallas in the car. Dallas drove to the end of a road and told her to walk into the
woods. Liveoak expressed fear of the woods, so Dallas suggested that she get into
the trunk. She asked him if she would “be all right in there”; Dallas said she
would, adding that he had ridden in the trunk frequently while attending concerts.
He said he didn’t force her into the trunk because he “didn’t have to. She was a
real nice lady.”
Dallas and Yaw drove to an ATM machine and used Mrs. Liveoak’s credit
card to withdraw $800. Then they called a cab, leaving Mrs. Liveoak in the trunk
11

Case: 17-14570

Appendix A-12
Date Filed: 07/13/2020

Page: 12 of 56

of her car. Liveoak gave Dallas her son’s telephone number, but he didn’t write it
down. He reassured her he would call the police, but he never did. Instead, he
went to purchase more crack and smoke it. Dallas passed many payphones on his
way from the parking lot to a crack house. And when asked why he never called,
Dallas testified that after smoking crack in a motel, he asked his crack dealer,
Chester, if he knew anyone with a car who could take Dallas back to the parking
lot where he had left Liveoak. Dallas said he did not want to call a cab because, in
his words, he “didn’t want to get caught.” Dallas offered a friend of Chester’s $25
to take him back to the parking lot. They started to drive there, but Dallas said that
the car overheated and the two returned to the motel. Dallas told the jury he never
intended to kill Mrs. Liveoak.
In closing argument at the guilt phase, Agricola told the jury:
Now, you may say, well, sure, he made that choice, and he did. But, you
know, you have heard about his life, and you have heard about his stepfather
giving him drinks when he was six or seven years old, and you heard about
the fact that he never had anybody telling him what he was doing was wrong
or showing him what the right thing to do was. He never went to church. He
was injecting intravenously drugs by the time he was eleven years old.
It is hard. It is hard for us to think about how a person with that kind of
upbringing views choices and consequences of those choices ....
Agricola also reminded the jury that
None of you have had an experience of even a few minutes of a life like
Donald Dallas’, so you don’t know what it is like to live that way. How do
we know, you know, about sleeping in abandoned houses, about grabbing a
TV in Wal-Mart and running out and throwing it in the back of a truck so you
12

Case: 17-14570

Appendix A-13
Date Filed: 07/13/2020

Page: 13 of 56

can go get money to go get some crack cocaine. We don’t know anything
about that.
On October 19, 1995, the Alabama jury found Donald Dallas guilty of two
capital offenses: murder in the course of a kidnapping in the first degree, in
violation of section 13 A-5-40(a)(1) of the Alabama Code; and murder in the course
of a robbery in the first degree, in violation of section 13A-5-40(A)(2) of the
Alabama Code.
C. The Penalty Phase Evidence
At the penalty phase, the state offered four aggravating factors: capital
murder in the course of a robbeiy, Ala. Code § 13A-5-49(4) (1975); capital murder
in the course of a kidnapping, id.; prior crimes of violence (specifically the
kidnapping and robbery of Portwood), id § 13A-5-49(2); and, finally, the murder
was especially heinous, atrocious, or cruel, id. § 13A-5-49(8). The state relied on
the evidence it had introduced at the guilt phase in support of each of the
aggravators except the conviction for prior crimes of violence. As for prior crimes
of violence, the state introduced certified copies of Dallas’s convictions for
kidnapping in the second degree, robbery in the first degree, robbery in the second
degree, and burglary in the first degree. The state introduced no new evidence
addressing any of the other aggravating factors. It called only one witness, Larry
Liveoak, the victim’s son. Larry testified about the search for his mother, the
profound impact her death had on their family, and his mother’s sterling character.
13

Case: 17-14570

Appendix A-14
Date Filed: 07/13/2020

Page: 14 of 56

The defense claimed three statutory mitigating factors: Dallas was under the
influence of extreme mental or emotional disturbance at the time of the murder,
Ala. Code § 13A-5-51(2); he was under the substantial domination of another
person (Carolyn “Polly” Yaw), id § 13A-5-51(5); and he lacked the substantial
capacity to conform his conduct to the requirements of the law because of his drug
addiction, id § 13A-5-51(6). Defense counsel told the jury it would present
testimony about Dallas’s good character along with additional evidence about
Dallas’s tortured life. In his opening statement at the penalty phase, Agricola told
the jury, “[t]o a certain extent, you have heard a lot of this already. But we want
you to understand some further details from members of his family who are here
and who will testify.”
The defense called four mitigation witnesses: Dallas’s older siblings, Cindy
Knight (now, Cindy Dallas) and Paul Dallas; Dallas’s former partner and mother of
two of his children, Pam Cripple; and Rhonda Lee Chavers, a friend of Dallas and
Yaw who had also testified at the guilt phase. Again, the object of the defense was
to amplify and highlight the shattered life Dallas experienced as a child and as a
young man.
Cindy Knight, Dallas’s sister, testified she and her brothers were raised in
the same household. She explained that they had an older brother, Jimmy Dallas,
but that he lived with their grandparents. She said their home was filled with
14

Case: 17-14570

Appendix A-15
Date Filed: 07/13/2020

Page: 15 of 56

violence, punctuated by the use of knives and guns by their parents. All of the
children, including Donald, saw this pattern of pervasive violence. Knight testified
she had seen her parents chase each other with knives. She was the target of
beatings by her mother, which Donald also witnessed as a young child. She
explained that the violence directed against her and her siblings came at the hands
of their mother. Their father was mostly absent, “either driving a truck or drunk.”
After their parents split up, her mother entered a common-law marriage with
another man, who lived with her and the children in New York, then in Florida,
and finally in Alabama. When asked to describe what it was like growing up in
that household, Knight said simply, “[i]t was hell.” Knight added that her mother
and stepfather “didn’t pay much attention to” Donald and that “[n]obody cared.”
Dallas’s counsel asked Knight whether she could identify any specific instance of
violence that occurred in the home that Donald would have known about; she
responded, “[w]hen I was molested.” She ran away from home at eighteen to
escape.
Knight further testified that the police and an ambulance had come to their
home and taken their mother “to an insane asylum a couple of times.” She added
that she and Donald were introduced to bars at a very young age: “[w]e have
always been in them. We was raised in them.” The children often went without
food, they were “lucky [they] got food sometimes,” and “[s]ometimes it would be a
15

Case: 17-14570

Appendix A-16
Date Filed: 07/13/2020

Page: 16 of 56

week before [they] would get to eat.” Knight said Dallas did not do well in school
that is, “whenever [they] got to go to school.... if [their mother] got [them] up
or if [they] had clothes clean to wear or whatever.”
Dallas was never in trouble when he lived with his first common-law wife,
Pam Cripple, but his behavior changed markedly when he became involved with
Yaw. Before Yaw, Dallas “was a kind, considerate person” who “would do
anything for anybody,” but “when he got with [Yaw], he got with the drugs, and it
was like a different person.” “You didn’t know him.” Cindy explained that Yaw
“dominated” Dallas and he would generally take the blame for her. She opined
that it was not in Dallas’s character to intend to kill anyone, but that Yaw had been
involved earlier in an attempted murder.
Paul Dallas, Donald’s older brother, also testified on his behalf. Counsel
asked him if he “ha[d] any differences” with Cindy Knight’s characterization of
their turbulent home life. “No, sir,” he replied. Paul also discussed their older
brother Jimmy, who was raised by their grandparents and went on to lead a
successful life, having gone to college and worked as a counselor. Paul too
described Donald’s good character before he met Yaw. Paul said Donald “would
do anything for people,” “work on their houses when they couldn’t get nobody to
do it and didn’t have the money,” “fixed people’s cars,” and “went to trailer parks
and cut grass for the old people.” But after Donald met Yaw, “he just quit and
16

Case: 17-14570

Appendix A-17
Date Filed: 07/13/2020

Page: 17 of 56

started running around with her and her buddies.” In the weeks leading up to the
murder, Dallas did not work; instead, he was “[o]ff running around doing crack
with Polly.”
Pam Cripple, Dallas’s first common-law wife and mother of his two eldest
children, testified that when she lived with Dallas, he was “kind” and tended to
help others. Dallas and Cripple split up when Dallas began seeing Yaw. Cripple
said that Dallas changed when he met Yaw, and then “had very little to do with his
kids.” She said her children had been in contact with Dallas since the murder and
they wanted to continue to see him. She also said it was out of character for Dallas
to kill anyone; in fact, he was never known to be violent.
Finally, Rhonda Chavers testified that she knew both Dallas and Yaw well,
that Dallas was not a violent person, but that Yaw was “mean” and controlled him.
Chavers reiterated her earlier testimony that Dallas cried when he learned that Mrs.
Liveoak had died and that he was greatly affected by her death.
In closing argument, the prosecutor recounted the trial evidence and the
most salient aggravating factor — that the murder was especially heinous,
atrocious, or cruel. The jury was reminded: “Hazel Liveoak died as gruesome a
death as you can imagine,” “entombed in her car,” given false hope that the
defendant would call for help, but instead she was left alone in a “stuffy, hot trunk
fighting for her life, fighting for a chance, a chance that never came to her.” The
17

Case: 17-14570

Appendix A-18
Date Filed: 07/13/2020

Page: 18 of 56

prosecutor argued that it would have been less cruel if Dallas had shot or stabbed
his victim; instead “he chose the two crudest weapons that he could choose, time
and terror.” Ultimately, he argued that “no matter how many mitigating
circumstances [the defense] could put forth of how bad his life has been, they
simply do not, cannot outweigh what he did to Hazel Liveoak.”
In Dallas’s defense, Agricola again asked the jury to reflect on Dallas’s life:
What kind of people would any of us be if we had the same kind of start in
life that Donald Dallas had? What if we had been shooting drugs in our veins
at age twelve? What if we didn’t have anybody that cared about us as a child?
Children aren’t bom bad. Something happens to them that makes them bad..
. . Donald Dallas’ world is not our world, never has been.
The same day, the jury recommended by a vote of 11 to 1 that Donald Dallas
be sentenced to death. The trial court followed the jury’s recommendation and
sentenced Dallas to death on November 16, 1995.
D. Direct Appeal
On direct appeal, the Alabama Court of Criminal Appeals allowed trial
counsel Agricola to withdraw. New counsel was appointed but Jeffery Duffey
remained on the case. Dallas’s convictions and sentence were affirmed on direct
appeal. Dallas v. State, 711 So. 2d 1101 (Ala. Crim. App. 1997). Dallas argued,
among other things, that his lead trial counsel, Agricola, rendered ineffective
assistance because he was encumbered by a conflict of interest. Applying Cuvier
v. Sullivan, 446 U.S. 335 (1980), the Court of Criminal Appeals rejected the claim,
18

Case: 17-14570

Appendix A-19
Date Filed: 07/13/2020

Page: 19 of 56

reasoning that Dallas had failed to establish an “actual conflict of interest” because
Dallas’s “interests were not adverse to that of the Alabama Department of Mental
Health and Mental Retardation.” He failed to “establish^ by any evidence that his
attorney’s performance was adversely affected” by the alleged conflict, and he
failed to show prejudice. Dallas, 711 So. 2d at 1111. The state appellate court
squarely rejected Dallas’s argument that prejudice should be presumed in this case
because Dallas failed to establish an actual conflict.1 Id. In a summary order, the

i

The Alabama Court of Criminal Appeals explained its ruling this way:
The appellant argues that he received ineffective assistance of counsel, in violation of the
Sixth and Fourteenth Amendments to the United States Constitution, because of, he says,
an actual conflict of interest on the part of his trial counsel.
A review of the record indicates that the appellant’s argument is without merit. Before
trial, one of the appellant’s attorneys filed a motion to withdraw from representation of the
appellant. The motion was based upon that attorney’s having been previously appointed
by the attorney general to represent the Alabama Department of Mental Health and Mental
Retardation in an unrelated civil case. The attorney stated in his motion that he had
conferred with the Disciplinary Commission of the Alabama State Bar Association, which
issued an advisory opinion stating that a conflict did not exist. The trial court denied the
motion without a hearing.
“In order to demonstrate a violation of his Sixth Amendment rights, a defendant must show
that an actual conflict of interest adversely affected his lawyer’s performance.” Cuvier v.
Sullivan. 446 U.S. 335, 350 (1980). “An actual conflict of interest exists when an attorney
owes loyalty to a client whose interests are adverse to another client.” Self v. State. 564
So. 2d 1023, 1033 (Ala. Crim. App. 1989), cert, quashed. 564 So. 2d 1035 (Ala. 1990).
While it is true that the attorney general had appointed the appellant’s trial counsel as a
deputy attorney general in an unrelated civil matter, an actual conflict of interest did not
exist in this case because the appellant’s interests were not adverse to that of the Alabama
Department of Mental Health and Mental Retardation. The appellant argues that we must
presume prejudice is in this case because the attorney had to struggle to serve two different
“masters.” On the one hand he was commissioned as a deputy attorney general and in that
capacity his superior was the attorney general. On the other hand, he was representing a
19

Case: 17-14570

Appendix A-20
Date Filed: 07/13/2020

Page: 20 of 56

Alabama Supreme Court affirmed, Ex parte Dallas. 711 So. 2d 1114 (Ala. 1998),
and the Supreme Court denied certiorari, Dallas v. Alabama, 525 U.S. 860 (1998).
E. State Postconviction Proceeding
Dallas sought collateral review in a Rule 32 petition filed in the
Montgomery County Circuit Court. He raised a variety of claims, including the
second claim now before us - that his counsel was ineffective at the penalty phase
because they did not locate or call several witnesses who could have offered
additional mitigating evidence. Trial counsel Jeffery Duffey and
investigator/mitigation consultant Susan James, testified, and the court accepted a
deposition from trial counsel Algert Agricola. On September 25, 2001, after the
hearing, the court denied the ineffective assistance claim.

defendant charged with a crime that the attorney general is charged with enforcing.
However, prejudice is presumed only when an actual conflict is shown. Cuvier. 446 U.S.
at 349-50. See also Browning v. State. 607 So. 2d 339, 342 (Ala. Crim. App. 1992).
Because no actual conflict of interest existed in this case, prejudice is not presumed.
Additionally, the appellant has not demonstrated that he was prejudiced as a result of the
fact that his attorney represented the State in the civil case. Nor has the appellant
established by any evidence that his attorney’s performance was adversely affected by his
appointment in that case. The appellant must make a factual showing that his attorney
“made a choice between possible alternative courses of action, such as eliciting (or failing
to elicit) evidence helpful to one client but harmful to the other.” Self v. State, supra,
(citations omitted.)
Therefore, the appellant was not denied effective assistance of counsel or a fair trial
because of an alleged conflict of interest on the part of his trial counsel.
Dallas. 711 So. 2d at 1111.
20

Appendix A-21
Case: 17-14570

Date Filed: 07/13/2020

Page: 21 of 56

First, the circuit court summarily dismissed the ineffectiveness claim based
on conflict of interest because the claim had been raised and rejected on direct
appeal by the Alabama Court of Criminal Appeals. As for the penalty-phase
ineffectiveness claim, the trial court concluded that it had been abandoned because
Dallas failed to call any of the relevant witnesses at his Rule 32 hearing.
Alternatively, it determined that Dallas’s penalty-phase ineffectiveness claim was
without merit. “Though the alleged testimony of the additional witnesses may
have provided specific instances of abuse, neglect, or drug abuse in Dallas’
childhood and adult life, the sum total of the testimony would have been, at best,
cumulative and would not have changed the outcome of sentencing.” In short,
“Dallas failed to show how trial counsel’s performance was deficient, or that he
suffered any prejudice.”
A month later, Dallas filed a motion to alter, vacate, or amend that order.
Four days later, the circuit court denied the application. But Dallas did not file his
notice of appeal until November 28, 2001, weeks after Alabama’s 42-day
jurisdictional window to file an appeal had closed. The Alabama Court of
Criminal Appeals granted the state’s motion to dismiss the appeal as untimely. In
February 2001, Dallas moved the circuit court for an order holding that his filing of
a motion to vacate, alter, or amend the court’s denial of his Rule 32 petition tolled
the statutory deadline for filing an appeal. The circuit court granted the motion.
21

Case: 17-14570

Appendix A-22
Date Filed: 07/13/2020

Page: 22 of 56

When Dallas filed a second notice of appeal with the Alabama Court of Criminal
Appeals two weeks later, the state moved to strike the notice. The court agreed,
granted the motion and struck the second notice of appeal, observing that it had
already dismissed his earlier appeal for untimeliness. The Alabama Supreme
Court denied certiorari.
F. Federal Habeas Proceedings
Dallas then turned his sights to the federal district court, filing this § 2254
petition in the United States District Court for the Middle District of Alabama.
The court rejected both claims now before this Court: whether defense counsel
labored under a conflict of interest in violation of the Sixth Amendment; and
whether defense counsel was ineffective at the penalty phase by failing to conduct
a reasonable mitigation investigation and by failing to present additional mitigating
evidence. As for the alleged conflict, the district court found that the state court’s
denial of the claim was neither contrary to nor an unreasonable application of
clearly established federal law; nor was it based on an unreasonable determination
of the facts in light of the evidence presented.
When it considered the ineffective-assistance-of-counsel claim, the district
court avoided the procedural default issues and reviewed the claim de novo rather
than affording deference to the state court’s determination under the Antiterrorism
and Effective Death Penalty Act (“AEDPA”). It was free to do so under
22

Case: 17-14570

Appendix A-23
Date Filed: 07/13/2020

Page: 23 of 56

controlling case law. Loggins v, Thomas. 654 F.3d 1204, 1215 (11th Cir. 2011)
(“When relief is due to be denied even if claims are not procedurally barred, we
can skip over the procedural bar issues, and we have done so in the past.”); id.
(collecting cases); see Bell v. Cone, 543 U.S. 447, 451 n.3 (2005) (per curiam)
(citing § 2254(b)(2) for the proposition that “an application for habeas corpus may
be denied on the merits, notwithstanding a petitioner’s failure to exhaust in state
court”). The district court also considered only the prejudice prong of Strickland v.
Washington, 466 U.S. 668 (1984), which it was likewise free to do. Waters v.
Thomas, 46 F.3d 1506, 1510 (11th Cir. 1995) (explaining that a “court may decline
to reach the performance prong of the ineffective assistance test if convinced that
the prejudice prong cannot be satisfied” (citing Strickland, 466 U.S. at 697)). The
court concluded that Dallas had failed to show prejudice because there was “no
reasonable probability that, but for any of the acts or omissions of Petitioner’s trial
counsel identified by Petitioner in his rambling federal habeas corpus pleadings
and briefs, the outcome of either phase of Petitioner’s 1995 capital murder trial
would have been any different.”
G. Additional Mitigating Evidence Presented to the Federal Habeas Court
The new mitigating evidence considered by the district court was presented
in affidavits submitted in 2007. Most critical among the new evidence were
additional averments from Cindy and Paul Dallas, as well as from Dallas’s mother,
23

Case: 17-14570

Appendix A-24
Date Filed: 07/13/2020

Page: 24 of 56

Elaine Dallas, his other brother, Jimmy Dallas, and an expert opinion offered by a
new psychologist, Dr. Ken Benedict. We recite this evidence too in some detail in
order to properly evaluate the petitioner’s claim that his counsel were ineffective
for failing to present additional mitigation at the penalty phase.
James (“Jimmy”) Dallas, Donald’s older brother who had not testified at the
trial, submitted an affidavit attesting to the following. The children’s father, James
Dallas, Sr., was an alcoholic who was largely absent, and much of his time at home
was spent fighting with their mother, Elaine. Because of his parents’ infidelity,
there were many discussions at home about whether Donald was in fact James,
Sr.’s son. Jimmy also testified that the children were often left home alone while
their parents were out drinking. He confirmed that their mother was unstable,
abused drugs, and was violent. She once threatened to kill all of the children with
an eight-to-ten-inch butcher knife while their father was out. Because of her
mental illness, Jimmy explained, their mother did not take good care of the
children. There were stray cats and dogs living in their home — up to twenty at one
point — and the home smelled terribly. Jimmy described living with his mother as
“torture.” He said his father moved in and out of their home, and when their
parents eventually divorced, his mother started up with a man named Chick, “who
was also a drunk.”

24

Case: 17-14570

Appendix A-25
Date Filed: 07/13/2020

Page: 25 of 56

Because he was an athlete in high school, Jimmy had coaches and other
positive role models in his life, whereas Donald lacked any role models. Even so,
Jimmy had a drug and alcohol problem until finally entering Alcoholics
Anonymous at the age of 29. As a result of counseling, he confronted many of the
negative aspects of his upbringing, including that he and his siblings were never
taught right from wrong, they weren’t taught how to care for themselves, their
parents lacked money to pay for medical or dental care for them, they frequently
lacked food and clothing, and he and his siblings all experienced significant
problems in their lives as a result of their troubled childhood. He offered the view
that his siblings “really never had a chance in life”; while Jimmy had other positive
influences, school, sports, and the military, his siblings “had no alternative at all.”
Donald’s sister Cindy, who testified at trial, also submitted an affidavit in
2007. She averred that their father James “was a violent, mean man who was a
drunk and messed around with other women.” The children were often left alone
while their parents were out drinking. Cindy elaborated on the fighting between
their parents, testifying that their father beat their mother in front of the children,
chased her around the house with knives and guns, threatening to kill her, and that
at times the children believed he would. She said their father took the children
with him to bars, where sometimes “bartenders fed [the kids] so [they] would not
go hungry.” Their father also took them to the homes of women with whom he
25

Case: 17-14570

Appendix A-26
Date Filed: 07/13/2020

Page: 26 of 56

was cheating. Cindy believed her father’s behavior “actually drove [their] mother
crazy” and explained that she was twice “[taken] . .. away in a straight jacket.”
Cindy testified that her mother was “sick,” that she “would see things that [others]
could not see,” and, at times, made the children hide as a result. Until their parents
broke up, her mother would frequently beat Cindy. Because they were so poor,
they often lacked food and clothing, and they moved around a lot between “houses
that were in bad shape,” including one that was “full of rats.” Donald was once
bitten by a rat and taken to the hospital. Cindy said that after their parents
divorced, their mother began a relationship with Chesley (“Chick”) Collier, who
played in a band, drank a lot, and took Donald to play the drums in bars when he
was eight or nine, but Chick “was good to [Paul and Donald].”
Cindy testified that Donald began a relationship with Pam Cripple when the
pair were teenagers, and that when Donald was with Pam, he worked full-time,
supported his family, and took care of their mother, Elaine. But Donald changed
dramatically after he left Pam and began a relationship with Polly Yaw. He started
using drugs. While Dallas attempted to maintain a relationship with his daughters,
Pam did not want Yaw around the kids. Cindy testified that Yaw was quick­
tempered and physically abusive and controlling of Donald. Yaw and Donald had
four children together, plus Yaw’s oldest daughter who Donald helped raise. She

26

Case: 17-14570

Appendix A-27
Date Filed: 07/13/2020

Page: 27 of 56

added that Yaw would manipulate Donald by threatening to take the children
away.
Paul Dallas, who had also testified at trial, likewise submitted an affidavit in
2007. Like Gindy and Jimmy, Paul testified that their parents were heavy drinkers,
fought, and were abusive of each other and the children. His father spent all of his
money on alcohol and the children often went hungry. Paul said his mother did her
best to support them, sometimes working two jobs, but the family remained so
poor that when the children’s shoes wore down, their mother put cardboard in them
because they couldn’t afford new ones. Paul testified just like Cindy had regarding
their rat-infested homes. He explained that when Donald was between twelve and
fourteen, he began cutting school, drinking alcohol, and smoking cigarettes and
marijuana. Paul also testified about his mother’s relationship with Chick and his
influence on the children. He took them to bars, and he was “good to [them] but he
drank a lot.” Paul said they spent a lot of time with Chick’s sister, Patricia
Mefford, and one of Ms. Mefford’s male friends molested both Paul and Donald.
Paul explained that he “witnessed Donald being anally raped as well as being
forced to perform oral sex on this man” and that “Donald also witnessed the same
thing happen to” Paul. This happened on at least four occasions. However, he did
not identify the name of the abuser, the time, or the location.

27

Case: 17-14570

Appendix A-28
Date Filed: 07/13/2020

Page: 28 of 56

Donald’s mother, Elaine, also submitted an affidavit. She said that her
relationship with Donald’s father was abusive, and that he beat her severely, even
when she was pregnant. James, Sr. was abusive to the children as well, once
throwing Paul against a wall. She smoked and drank throughout her pregnancies,
consuming four or five vodka cocktails a day. She testified about the family’s
poverty and her inability to pay for certain medical care. She also testified about
her severe chronic depression and hallucinations. She was admitted to a
psychiatric hospital at least once, where she remained for about a month until her
husband forced her to sign herself out against the recommendation of her doctors.
Elaine admitted in her affidavit that as her drinking increased, she became
more abusive to her children, spanking them with a paddle. She confirmed the
details of her relationship with Chick and his influence on her children. She
became aware that Paul and Donald skipped school and used alcohol and drugs,
and although she spoke to the school’s truancy official about the problem, the
school did nothing. Ultimately, Elaine Dallas offered the following:
It is my opinion that I put my children through hell when they were growing
up. I exposed them to alcohol abuse by their father and by me. They were
exposed to physical abuse by their father and by me. They witnessed their
father beating me on many, many occasions. They were around me when I
was out of my head and I am certain they must have been afraid of my
behavior. My children were also forced to live in poverty and as a result they
had very little security when they were growing up.

28

Case: 17-14570

Appendix A-29
Date Filed: 07/13/2020

Page: 29 of 56

Dr. Ken Benedict, a psychologist who evaluated Donald, also submitted an
affidavit. Benedict spent eight-and-a-half hours with Dallas and two-and-a-half
hours reviewing available records, including affidavits from his family and others
familiar with the Dallas family. Benedict described Dallas as having “average
intellectual ability,” though his scores on subsections of the intelligence test varied
widely, “making it difficult to summarize his general intelligence with one score.”
Although Dallas had improved in reading and spelling while incarcerated, Dallas
functioned below a fifth-grade reading level, which would be categorized as
“impaired.” Dr. Benedict diagnosed three learning disorders (in reading, written
language, and mathematics), as well as Attention Deficit Hyperactivity Disorder
(“ADHD”). The learning disorders were akin to severe dyslexia, and the ADHD
was characterized as having difficulty with sustained attention, impulse control,
and planning, among other impairments. He explained that these conditions could
be remediated or exacerbated by environmental factors, that Dallas’s conditions
were not identified or consistently treated, and that there were highly negative
psychosocial influences in his family life, including poverty, neglect, physical and
sexual abuse, traumatic exposure and substance abuse.
Benedict opined that people with Dallas’s learning and attention disorders,
particularly when untreated, are more likely to develop substance abuse disorders
during early adolescence. Because of the hardship and shame of having learning
29

Case: 17-14570

Appendix A-30
Date Filed: 07/13/2020

Page: 30 of 56

disorders, negative feedback from teachers and peers, and the lack of parental
oversight, such individuals frequently drop out of school. Benedict added that
Dallas suffers from depression, anxiety, low self-esteem, shame, and cognitive
difficulties in the form of inattention, disorganization, and confusion under stress.
People with these characteristics are often described as unassertive or passivedependent. Moreover, people who share Dallas’s psychological profile “are
typically deficient in executive brain functions” and get into trouble before having
time to plan or reflect on their behavior. Benedict said that Dallas “does not fit the
personality profile of someone who would act solely or take the lead in a crime
such as the one in question”; he would be more likely to assume the role of a
“follower.” Finally, Benedict offered his opinion that “it is not likely Mr. Dallas
desired or planned the death of the victim.”
In conducting de novo review of the ineffectiveness claim, the district court
described the defendant’s mitigation case at trial as being “substantial.” Moreover,
he observed that in some ways the new evidence would have weakened the trial
presentation by providing conflicting accounts of Dallas’s mother’s mental health
for example, and in other ways merely duplicated what the jury had heard.
Weighing the totality of the old and new mitigating evidence against the powerful
aggravators presented by the state, the district court concluded that there was no

30

Case: 17-14570

Appendix A-31
Date Filed: 07/13/2020

Page: 31 of 56

reasonable probability that the outcome would have been any different if the jury
had heard it all, and it denied the claim.
III.
“We review de novo a district court’s grant or denial of a habeas corpus
petition.” McNair v. Campbell, 416 F.3d 1291, 1297 (11th Cir. 2005). Because
Dallas filed his federal habeas petition after April 24, 1996, this case is governed
by AEDPA. “Under AEDPA, if a state court has adjudicated the merits of a claim
— as the state court did here — we cannot grant habeas relief unless the state court’s
decision ‘was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States,’
or ‘was based on an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.’” Kilgore v. Sec’v, Fla. Dep’t of
Corr.. 805 F.3d 1301, 1309 (11th Cir. 2015) (quoting 28 U.S.C. § 2254(d)).2

2 Pursuant to § 2254(d):
An application for a writ of habeas corpus on behalf of a person in custody pursuant to
the judgment of a State court shall not be granted with respect to any claim that was
adjudicated on the merits in State court proceedings unless the adjudication of the claim
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
31

Case: 17-14570

Appendix A-32
Date Filed: 07/13/2020

Page: 32 of 56

“Under § 2254(d)(l)’s ‘contrary to’ clause, we grant relief only ‘if the state
court arrives at a conclusion opposite to that reached by [the Supreme] Court on a
question of law or if the state court decides a case differently than [the Supreme
Court] has on a set of materially indistinguishable facts.’” Jones v. GDCP
Warden, 753 F.3d 1171, 1182 (11th Cir. 2014) (alterations in original) (quoting
Williams v. Tavlor. 529 U.S. 362, 413 (2000)). “Under § 2254(d)(l)’s
‘unreasonable application’ clause, we grant relief only ‘if the state court identifies
the correct governing legal principle from [the Supreme] Court’s decisions but
unreasonably applies that principle to the facts of the prisoner’s case.’” Id
(alteration in original) (quoting Williams, 529 U.S. at 413).
The second prong of § 2254(d) — that an adjudication resulted in a decision
that was based on an unreasonable determination of the facts in light of the
evidence presented in the state court proceeding — “requires that we accord the
state trial court substantial deference.” Brumfield v. Cain. 576 U.S. 305, 314
(2015). “If ‘[Reasonable minds reviewing the record might disagree about the
finding in question, on habeas review that does not suffice to supersede the trial
court’s . . . determination.’” Id. (alteration and ellipsis in original) (quoting Wood
v. Allen. 558 U.S. 290, 301 (2010)).
IV.

32

Case: 17-14570

Appendix A-33
Date Filed: 07/13/2020

Page: 33 of 56

Dallas first claims that his lead trial counsel was ineffective because he was
laboring under a prohibitive conflict of interest. The Sixth Amendment to the
United States Constitution guarantees that “[i]n all criminal prosecutions, the
accused shall enjoy the right... to have the Assistance of Counsel for his
defence.” U.S. Const, amend. VI. Assistance of counsel is the bedrock of a fair
criminal justice system. “Thus, the Sixth Amendment does more than require the
States to appoint counsel for indigent defendants. The right to counsel prevents the
States from conducting trials at which persons who face incarceration [or death]
must defend themselves without adequate legal assistance.” Cuvier v. Sullivan,
446 U.S. 335, 344 (1980). The effective assistance of counsel demands not only a
minimally competent lawyer, but also counsel unburdened by a conflict of interest
that impedes zealous representation.
Dallas says that because Agricola represented Alabama’s Department of
Mental Health and Mental Retardation (the “DMHMR”) in an unrelated civil
matter, while at the same time defending him against Alabama’s prosecution, he
was deprived of his Sixth Amendment right to the effective assistance of counsel.
He argues that the Alabama Court of Criminal Appeals erroneously applied
Sullivan instead of Holloway v. Arkansas. 435 U.S. 475 (1978), in adjudicating the
alleged conflict. In Holloway, the Supreme Court held that “whenever a trial court
improperly requires joint representation over timely objection reversal is
33

Case: 17-14570

Appendix A-34
Date Filed: 07/13/2020

Page: 34 of 56

automatic.” 435 U.S. at 488. The problem with the argument, however, is that
Holloway’s automatic reversal rule is limited only to those circumstances where a
trial court improperly requires the joint representation of codefendants overly
timely objection. In the absence of the joint representation of codefendants, the
appropriate legal standard is found in Sullivan, which requires a showing that an
actual conflict of interest adversely affected defense counsel’s performance. 446
U.S. at 349-50. The Court of Criminal Appeals’ reliance on Sullivan was neither
contrary to nor an unreasonable application of clearly established Supreme Court
law. Moreover, nothing in the state court’s findings amounted to an unreasonable
determination of the facts.
The typical showing a petitioner must make to succeed on an ineffective
assistance of counsel claim is rigorous. Under Strickland, a petitioner must show
that his counsel’s performance was constitutionally deficient — that his lawyer
“made errors so serious that counsel was not functioning as the ‘counsel’
guaranteed the defendant by the Sixth Amendment” -- and that the deficient
performance prejudiced the defendant, depriving him “of a fair trial, a trial whose
result is reliable.” 466 U.S. at 687. Simple mistakes or strategic errors are not
enough, nor are serious errors if, absent those errors, there is no “reasonable
probability” that the outcome would have been different. Id. at 694. But the
Supreme Court has carved out a few “exceptions” to Strickland’s high bar where
34

Case: 17-14570

Appendix A-35
Date Filed: 07/13/2020

Page: 35 of 56

counsel’s ineffectiveness stems from a conflict of interest. See Mickens v. Taylor,
535 U.S. 162, 176 (2002) (describing the precedential line of “exceptions from the
ordinary requirements of Strickland . . . where Strickland itself is evidently
inadequate to assure vindication of the defendant’s Sixth Amendment right to
counsel”).
In Mickens, the Supreme Court explained the key differences between
Holloway and Sullivan. In analyzing a Sixth Amendment conflict-of-interest
claim, we ask whether a trial court’s duty to investigate an attorney’s conflict of
interest was triggered; and, where a trial court fails to discharge that duty, what is
l

the remedy. Mickens, 535 U.S. at 168-74. Under Holloway, the duty to inquire is
triggered by a pre-trial objection to the joint representation of codefendants. Under
Sullivan, the duty is triggered, even absent objection, where a trial court knows or
reasonably should know that a particular conflict exists — whether that conflict
relates to joint representation of codefendants or to other conflicts, like the fee
arrangement in Wood v. Georgia. See 450 U.S. 261, 271-73 (1981) (finding that
the trial court had a duty to investigate a conflict resulting from a fee arrangement
between counsel and the defendant’s employer, and remanding for consideration of
whether an actual conflict negatively impacted counsel’s performance).
If a trial court fails to investigate a conflict that it is obliged to examine, we
address the appropriate remedy. In Mickens, the Supreme Court explained that
35

Case: 17-14570

Appendix A-36
Date Filed: 07/13/2020

Page: 36 of 56

Holloway “creates an automatic reversal rule only where defense counsel is forced
to represent codefendants over his timely objection, unless the trial court has
determined that there is no conflict.” 535 U.S. at 168 (emphases added). But
under Sullivan, where a trial court fails to adequately investigate any other type of
conflict that it knows or reasonably should know about, reversal is only warranted
if the petitioner shows an actual conflict that negatively affected his attorney’s
performance. Under Sullivan, then, a defendant is obligated to establish that the
alleged conflict adversely affected his attorney’s performance.
While Dallas urges us to apply Holloway’s automatic reversal rule to any
alleged conflict just because an objection was made before trial, doing so would
extend Holloway beyond its limited application. What’s more, Dallas asks us to
find, pursuant to our deferential review under AEDPA, that the Alabama Court of
Criminal Appeals’ failure to apply Holloway was contrary to clearly established
Supreme Court law. But the clarity we find in Mickens is just the opposite of what
Dallas has suggested: Holloway “creates an automatic reversal rule only where
defense counsel is forced to represent codefendants over his timely objection.” Id.
(emphases added).
As a preliminary matter, we think it clear that some inquiry was necessary
because the potential conflict was brought to the trial court’s attention by Dallas’s
counsel, who filed a motion to withdraw based on the conflict. We also think it
36

Case: 17-14570

Appendix A-37
Date Filed: 07/13/2020

Page: 37 of 56

likely that the trial court adequately discharged its duty. Indeed, the trial court
took argument on Agricola’s motion, listened to everything counsel presented,
considered the ethical opinion of the Disciplinary Commission of the Alabama
State Bar Association and Agricola’s statement that he would “do [his] best” for
his client, and concluded that there was no actual conflict of interest that would
prevent Agricola from vigorously representing Dallas.
But even if the trial court’s inquiry were somehow deficient, it still was not
an unreasonable application of Sullivan for the Alabama Court of Criminal
Appeals to find that there was no actual conflict of interest that warranted the
reversal of Dallas’s conviction. Dallas’s counsel, Agricola, was appointed as a
Special Deputy Attorney General to represent the DMHMR in a civil class action
relating to conditions in Alabama’s mental health institutions. See Wyatt ex rel.
Rawlins v. Hanan. 170 F.R.D. 189, 191 (M.D. Ala. 1995) (describing the multiple
iterations of that litigation, which began in 1970 and resulted in a 1986 consent
decree, compliance with which was litigated again in the 1990s, the point at which
Agricola became involved). That case was completely unrelated to Dallas’s
homicide case.
But beyond the fact that Agricola represented the DMHMR only in a limited
capacity in a wholly unrelated civil case, the DMHMR’s interests were not adverse
to Dallas’s. First, Dallas says that the DMHMR is directly involved in almost
37

Case: 17-14570

Appendix A-38
Date Filed: 07/13/2020

Page: 38 of 56

every capital case through court-ordered psychological evaluations for competency
to stand trial and mental state at the time of the offense. Dallas notes that the trial
court in fact ordered a DMHMR-appointed examination, which was conducted by
Dr. Guy Renfro, who was contracted by the DMHMR. But the DMHMR’s
involvement in contracting for a psychological evaluation of Dallas by a competent
expert does not make its interests adverse to Dallas’s. Dallas has identified no
interest that the DMHMR had in Dallas’s trial beyond the general observation that
it was involved in contracting for the evaluation.3
Most critically, Dallas has failed to show that this supposed conflict had any
bearing on his counsel’s performance, much less that it amounted to an
unreasonable application of Sullivan or an unreasonable determination of the facts
for the Court of Criminal Appeals to conclude as much. Dallas says that the
alleged conflict caused the defense to rely only on Dr. Renfro as a defense expert,

3 Dallas relies heavily on Zuck v. Alabama. 588 F.2d 436 (5th Cir. 1979), a former Fifth Circuit
case that is binding on this Court. Bonner v. City of Prichard. 661 F.2d 1206, 1209 (11th Cir.
1981) (en banc). Zuck is a pre-AEDPA case that neither cited nor interpreted any Supreme
Court law, much less did it tell us what has been clearly established by the Supreme Court in
conflict-of-interest ineffectiveness cases. Indeed, Zuck explicitly did not apply the adverseimpact requirement of Sullivan, saying instead that the Court’s “analysis in conflict of interest
cases does not focus on the actual effect of the conflict on a particular defendant’s case.” Zuck,
588 F.2d at 439-40. Moreover, Zuck is factually distinguishable from Dallas’s case. In Zuck,
the law firm representing the criminal defendant represented, in an unrelated matter, the state
prosecutor who actually tried Zuck. The Zuck Court noted that “the defense attorneys were
subject to the encumbrance that the prosecutor might take umbrage at a vigorous defense of Zuck
and dispense with the services of their firm.” Id. at 439. The DMHMR was not a participant in
Dallas’s trial, beyond having contracted for Dallas’s pre-trial evaluation. The claimed conflicts
are not comparable. Whatever we might say about Zuck. the interests of the DMHMR were not
pitted against Dallas’s interests.
38

Case: 17-14570

Appendix A-39
Date Filed: 07/13/2020

Page: 39 of 56

rather than hiring a different expert. But there is no reason to think the defense
relied only on and called Dr. Renfro because of Agricola’s alleged conflict. In
fact, in the Rule 32 proceedings, Agricola’s co-counsel, Jeffery Duffey, testified
that they chose to use Dr. Renfro and they weren’t concerned about a conflict
because Renfro was simply contracted by the state in much the same way an
appointed defense counsel is.
As the state points out, Renfro’s testimony was altogether beneficial to
Dallas; he fully supported the defendant’s theory that he did not intend to kill
Liveoak. As we’ve noted already, Renfro testified that Dallas had a “very long
history of substance abuse” and that “research has shown when people begin drug
abuse at an early age, they have more difficulty later on discontinuing the drug
use,” which “tends to retard their development as far as social development,
problem solving, [and] coping skills.” He also said that when individuals are
“acutely intoxicated,” they have trouble distinguishing right from wrong; that crack
cocaine produces “a very intense psychological addiction with very intense
cravings” and “a lot of discomfort”; and that an addict’s primary goal is to obtain
more and more of the drug. Renfro opined that Dallas was a cocaine addict and
that he was binging on the drug at the time of the homicide. He explained that the
defendant would do whatever he had to do to feed his habit. Dr. Renfro also

39

Case: 17-14570

Appendix A-40
Date Filed: 07/13/2020

Page: 40 of 56

testified that Dallas evinced real remorse, becoming “tearful” when he discussed
Liveoak’s death. Dallas told him that it “had not been his intent for her to die.”
Quite simply, there is no basis in this record to suggest, let alone find, that
the defense team chose to use Dr. Renfro and not another expert because of any
claimed conflict of interest. And this is the only specific, substantive reason
offered in support of the petitioner’s theory that Agricola’s representation was
adversely impacted by his alleged conflict. The state court’s application of
Sullivan to Dallas’s conflict-of-interest ineffectiveness claim was not contrary to
clearly established federal law. And its conclusion that Dallas had failed to show
that his attorney labored under an actual conflict of interest that adversely affected
his attorney’s performance was neither an unreasonable application of Sullivan,
nor was it based on an unreasonable determination of the facts in light of the
evidence presented.
V.

Dallas also says that he received ineffective assistance of counsel during the
penalty phase of his capital trial because his lawyers failed to adequately
investigate and present mitigating evidence. As we have explained, to succeed on
an ineffective-assistance-of-counsel claim, Dallas must show that: (1) “counsel’s
representation fell below an objective standard of reasonableness,” and (2) “there
is a reasonable probability that, but for counsel’s unprofessional errors, the result
40

Case: 17-14570

Appendix A-41
Date Filed: 07/13/2020

Page: 41 of 56

of the proceeding would have been different.” Strickland, 466 U.S. at 688, 694;
accord Knowles v. Mirzayance, 556 U.S. Ill, 126-27 (2009); Wiggins v. Smith,
539 U.S. 510, 521-22 (2003); Williams v. Taylor, 529 U.S. 362, 390-91 (2000);
Darden v. Wainwright, 477 U.S. 168, 184 (1986). “A court may decline to reach
the performance prong of the ineffective assistance test if convinced that the
prejudice prong cannot be satisfied.” Waters, 46 F.3d at 1510. The failure to meet
either Strickland prong is fatal to the claim.
To show prejudice,
it must be established that, but for counsel’s unprofessional performance,
there is a reasonable probability the result of the proceeding would have been
different. See Strickland, 466 U.S. at 694. “It is not enough for the
[petitioner] to show the errors had some conceivable effect on the outcome of
the proceeding . . . ,” because “[virtually every act or omission of counsel
would meet that test.” Id. at 693. Nevertheless, a petitioner “need not show
that counsel’s deficient conduct more likely than not altered the outcome in
the case.” Id. at 693. Rather, where, as here, a petitioner challenges a death
sentence, “the question is whether there is a reasonable probability that, absent
the errors, the sentencer . . . would have concluded that the balance of
aggravating and mitigating circumstances did not warrant death.” Id at 695.
Putman v. Head, 268 F.3d 1223, 1248 (11th Cir. 2001) (alterations and ellipses in
original); see also Ferguson v. Sec’v for Dep’t of Corr.. 580 F.3d 1183, 1198-99
(11th Cir. 2009) (noting that Strickland asks if a different result is “reasonably
probable,” not if it is “possible” (emphases omitted)). Thus, “[i]n assessing
prejudice, we reweigh the evidence in aggravation against the totality of available
mitigating evidence.” Wiggins, 539 U.S. at 534 (emphasis added). We examine
41

Case: 17-14570

Appendix A-42
Date Filed: 07/13/2020

Page: 42 of 56

all of the good and all of the bad, what was presented during the trial and what was
offered collaterally later. The question is whether, “viewed as a whole and
cumulative of mitigation evidence presented originally,” there is ‘“a reasonable
probability that the result of the sentencing proceeding would have been different’
if competent counsel had presented and explained the significance of all the
available evidence.” Williams. 529 U.S. at 399. “A reasonable probability is a
probability sufficient to undermine confidence in the outcome” — in this case, a
probability sufficient to undermine confidence that the jury would have
recommended death. Strickland, 466 U.S. at 694. In determining whether a
reasonable probability of a different outcome exists, we presume a reasonable
decisionmaker. See Nix v. Whiteside, 475 U.S. 157, 175 (1986) (“[I]n judging
prejudice and the likelihood of a different outcome, ‘a defendant has no entitlement
to the luck of a lawless decisionmaker.’” (alteration adopted) (quoting Strickland,
466 U.S. at 695)).
Before addressing the merits of Dallas’s ineffective-assistance-of-counsel
claim, we note a patch of procedural underbrush, though it does not affect our
analysis. The parties agree that petitioner’s claim was procedurally defaulted in
state court, although they disagree sharply about when the default occurred and
thus its effect. Dallas argues the default happened when the state trial court said
that he had “abandoned” the claim by failing to present the testimony of relevant
42

Case: 17-14570

Appendix A-43
Date Filed: 07/13/2020

Page: 43 of 56

witnesses at his Rule 32 hearing, but that ineffective assistance of counsel in that
proceeding excuses the default under Martinez v. Ryan, 566 U.S. 1 (2012); the
state says the claim was adjudicated on the merits by the state circuit court and not
defaulted until the Alabama Court of Criminal Appeals dismissed it when Dallas
failed to timely appeal the trial court’s denial of his Rule 32 petition.
Ultimately , when the claim was procedurally defaulted is of no moment
because Dallas’s claim fails on the merits. As we have said many times and as the
Supreme Court has held, a federal court may skip over the procedural default
analysis if a claim would fail on the merits in any event. Loggins, 654 F.3d at
1215 (“When relief is due to be denied even if claims are not procedurally barred,
we can skip over the procedural bar issues, and we have done so in the past.”); id
(collecting cases); see Bell, 543 U.S. at 451 n.3 (citing § 2254(b)(2) for the
proposition that “an application for habeas corpus may be denied on the merits,
notwithstanding a petitioner’s failure to exhaust in state court”); see also Berghuis
v, Thompkins, 560 U.S. 370, 390 (2010) (explaining that courts can “deny writs of
habeas corpus under § 2254 by engaging in de novo review when it is unclear
whether AEDPA deference applies, because a habeas petitioner will not be entitled
to a writ of habeas corpus if his or her claim is rejected on de novo review”). That
is what the district court did here, even though by doing so it obligated itself to
examine the ineffectiveness claim de novo and without affording any deference to
43

Case: 17-14570

Appendix A-44
Date Filed: 07/13/2020

Page: 44 of 56

the state court’s judgment. We, like the district court, take the “Ockham’s razor”
approach and analyze the claim de novo.4
We too conclude that this claim must be denied because Dallas cannot
establish prejudice. When reweighing the aggravating circumstances against the
totality of the mitigating evidence - again, what was introduced at his original trial
and what Dallas presented in his postconviction proceedings — we consider the
cumulative nature of the evidence. Mitigating evidence in postconviction
proceedings is cumulative “when it tells a more detailed version of the same story

4

To do otherwise would require us to engage in a complicated analysis that may well wind up at
de novo review anyway. That analysis would go something like this: To determine whether the
claim was procedural ly defaulted at the state trial court level, we would ask whether the
alternative “merits” determination by the state trial court was indeed an “adjudication on the
merits” or instead, as Dallas argues, an invalid (under Alabama law) second review of the
sufficiency of the pleadings, after the state trial court had determined the pleadings sufficient to
entitle Dallas to an evidentiary hearing. If the claim was defaulted at the trial court level, we
would then conduct a Martinez analysis to determine whether ineffective assistance of counsel in
his Rule 32 proceeding excuses the default, and if it does, review the claim on the merits. And if
the claim was not defaulted at the trial court level, we would then analyze whether the claim was
instead procedurally defaulted at the appellate level. That analysis is complicated by the
procedural history. Dallas argues that his motion for reconsideration in the trial court should
have tolled the jurisdictional period for filing an appeal under Alabama law - and he says that
the state appellate court’s refusal to toll the jurisdictional deadline was not a “firmly established
and regularly followed” state procedural rule that would be adequate to bar federal review of his
claim. See Walker v. Martin. 562 U.S. 307, 316 (2011) (“To qualify as an ‘adequate’ procedural
ground, a state rule must be ‘firmly established and regularly followed.’” (quoting Beard v.
Kindler. 558 U.S. 53, 60-61 (2009))). We need not get into any of this difficulty because the
claim fails even under de novo review — that is, it fails even if the procedural default occurred at
the trial court level and Martinez excused the default, as Dallas claims. While the state' maintains
that the claim was procedurally defaulted at the appellate level, the primary argument offered to
this Court is that the claim fails even under de novo review because Dallas cannot establish
prejudice. Thus, we skip over the difficult procedural default questions and cut to the heart of
the matter: whether Dallas can establish prejudice as a result of the claimed failure of his trial
counsel to conduct and present additional mitigating evidence.
44

Case: 17-14570

Appendix A-45
Date Filed: 07/13/2020

Page: 45 of 56

told at trial or provides more or better examples or amplifies the themes presented
to the jury.” Holsev v. Warden, Ga. Diagnostic Prison, 694 F.3d 1230, 1260-61
(11th Cir. 2012). The Supreme Court has found evidence cumulative where it
“substantiate^],” “supports],” or “explain[s]” more general testimony provided at
trial. Cullen v. Pinholster, 563 U.S. 170, 200-01 (2011) (“There is no reasonable
probability that the additional evidence Pinholster presented in his state habeas
proceedings would have changed the jury’s verdict. The ‘new’ evidence largely
duplicated the mitigation evidence at trial. School and medical records basically
substantiate the testimony of Pinholster’s mother and brother. Declarations from
Pinholster’s siblings support his mother’s testimony that his stepfather was abusive
and explain that Pinholster was beaten with fists, belts, and even wooden boards.”).
The story presented at Dallas’s trial was a tragic account of childhood
neglect and abuse, violence, poverty, a dearth of any positive or guiding influence,
and pronounced substance abuse from a very early age. Indeed, the entire defense
strategy was to establish that Dallas never intended to kill Mrs. Liveoak; virtually
every piece of evidence presented bore on that theory, and the story of his life and
substance abuse were its pillars. Most of the testimony offered in the 2007
declarations in district court is cumulative of the mitigating evidence presented at
trial — that is, many of the declarations simply add some details, substantiate, or
explain some aspects of Dallas’s life that had already been graphically presented,
45

Case: 17-14570

Appendix A-46
Date Filed: 07/13/2020

Page: 46 of 56

and in detail at the trial. This evidence merely “amplifies the themes [Dallas]
presented to the jury” at trial. See Holsey, 694 F.3d at 1260-61.
For starters, one major theme found in the 2007 affidavits was the severe
mental illness that plagued Dallas’s mother, Elaine — issues described in detail by
Jimmy, Cindy, Paul, and Elaine herself. But Cindy testified at trial that living with
their mother was “hell,” and specifically, that the police and an ambulance had
come to their home to take their mother “to an insane asylum a couple of times.”
Although the 2007 affidavits amplify the theme of growing up with a mentally ill
mother, the trial jury was fully aware of Elaine’s mental illness, including the fact
that she had been hospitalized on account of mental illness on several occasions.
Another theme presented in the 2007 affidavits concerned the impoverished
conditions of Dallas’s childhood, including the condition of their home and the
lack of food and clothing. But Cindy also testified at trial that living in “that
home” was “hell,” that the Dallas children were “lucky [if they] got food
sometimes,” that “[s]ometimes it would be a week before [they] would get to eat,”
and that they sometimes would not attend school because they had no clean clothes
to wear. The jury also learned that Dallas often skipped school and dropped out in
the sixth grade. Again, the 2007 affidavits amplify these themes. Thus, they are
cumulative of the same themes Dallas presented at the guilt and penalty phases of
his trial and were considered by the jury.
46

Case: 17-14570

Appendix A-47
Date Filed: 07/13/2020

Page: 47 of 56

A third theme raised in the 2007 affidavits was the presence of significant
violence in Dallas’s childhood home. Jimmy, Cindy, Paul, and Elaine all testified
about it. Jimmy said, for instance, that their mother threatened to kill the children
with a butcher knife; Cindy testified that their father was a violent man who beat
their mother in front of the children and chased her around the house with knives
and guns and that their mother beat her; Paul testified that their parents were
violent with each other and that their mother, in turn, beat the children; and Elaine
herself testified that as a result of her drinking, she was abusive to her children,
including spanking them with a paddle. But still again, Cindy testified at trial that
there was “[a] lot of violence and problems” in their home, that she had witnessed
her parents chasing each other with knives, and that their mother beat her, all of
which Donald Dallas witnessed as a child. The 2007 affidavits augment this
testimony, but again, in doing so, they simply amplify the theme of violence found
in the home that was presented to the jury.
The 2007 affidavits also highlighted the lack of any role model in Dallas’s
life. Jimmy explained that he had positive role models growing up — role models
that Donald lacked. He said he realized later in life, through counseling, that he
and his siblings were never taught right from wrong by their parents, and that while
he had some positive influences and some structure in his life, his siblings did not
and thus, they “really never had a chance in life.” But, at trial, both Cindy and
47

Case: 17-14570

Appendix A-48
Date Filed: 07/13/2020

Page: 48 of 56

Paul testified about the lack of any guidance or positive role model in the
children’s lives. Cindy testified at trial that their parents “didn’t pay much
attention to” Donald and that “[njobody cared.” While Jimmy did not testify at
trial, Paul explained to the jury that Jimmy went on to lead a successful life
because he went to live with their grandparents, but that, like Donald, Paul had
been in significant legal trouble and suffered from substance abuse. And Donald
himself testified at trial that he received no guidance on right from wrong and was
left to his own devices as a kid. Although the 2007 affidavits may offer a fuller
account about the absence of a role model, this theme was clearly presented to the
jury at trial.
Perhaps most important, much of the testimony in the 2007 affidavits
addressed Dallas’s substance abuse, including how his personality and priorities
changed after he became addicted. All of this testimony was cumulative. The
defendant’s main trial strategy was to negate the intent element of capital murder
by focusing on Dallas’s substance abuse, beginning at an early age and continuing
through the murder of Hazel Liveoak. Dr. Renfro told the jury that Dallas’s
substance abuse began at a very early age — alcohol at age seven or eight,
marijuana at twelve or thirteen, and cocaine and the intravenous use of crystal
methamphetamine at thirteen or fourteen. He explained at some length that drug
abuse at so tender an age makes it harder to quit and impairs development. He also
48

Case: 17:14570

Appendix A-49
Date Filed: 07/13/2020

Page: 49 of 56

testified about the powerful psychological addictiveness of crack and the
“desperation that builds in when people are using large volumes of cocaine,”
making them “more prone[] to use violence.” The 2007 affidavit testimony from
Dallas’s family members about how his character changed as he began using
drugs, and the expert testimony offered by Dr. Benedict about Dallas’s substance
abuse, plainly was cumulative. Related to substance abuse, the 2007 affidavits also
highlighted the control over Donald exercised by his partner and accomplice — and
the person with whom he began using crack cocaine — Polly Yaw. But Yaw’s
influence on Donald was amply presented to the jury at the penalty phase in the
testimony of Cindy Dallas, Pam Cripple, and Rhonda Chavers.
The long and short of it is, as we’ve said before, that “no prejudice can result
from the exclusion of cumulative evidence,” Ledford v. Warden, Ga. Diagnostic &
Classification Prison, 818 F.3d 600, 649-50 (11th Cir. 2016), and Dallas did not
suffer prejudice from the failure to present the cumulative evidence contained in
the 2007 affidavits.
There are, however, two pieces of “new” evidence found in the
postconviction record: (1) Dr. Benedict’s diagnosis that Dallas suffered from
learning disorders and ADHD; and (2) the allegations made by Paul Dallas that he
and Donald were sexually assaulted on some four occasions.

49

Case: 17-14570

Appendix A-50
Date Filed: 07/13/2020

Page: 50 of 56

First, Dr. Benedict’s testimony would not have added much beyond the
testimony the jury heard from Dr. Renfro. While it is true that Dr. Benedict
diagnosed Dallas with learning disorders and ADHD, the effects of these
conditions were similar to what Dr. Renfro, Dallas himself, and other witnesses
told the jury at trial. Benedict said that people with Dallas’s learning and attention
disorders are more likely to develop substance abuse disorders during early
adolescence. But the jury already learned, and in detail, from Dr. Renfro, from
Dallas, and from his siblings that the defendant suffered from substance abuse and
at a very early age. Benedict also said these disorders often cause an individual to
drop out of school. But again, the jury heard from Dallas that he had difficulty in
school and in fact dropped out in the sixth grade. Most importantly, Benedict
asserted that individuals with Dallas’s combination of learning, attention, and other
mental health issues are often “unassertive” and “passive-dependent.” But still
again the jury heard ample testimony at trial that Dallas was passive and
unassertive, and that he was under the domination and control of Yaw. Quite
simply, Benedict’s testimony would not have changed the characteristics and
difficulties the jury heard and considered before it recommended that Dallas be
sentenced to die, particularly since the jury already knew that Dallas’s substance
abuse and difficulties in school began at so young an age. While it is true the
learning disorders and ADHD diagnosis would have offered another possible
50

Case: 17-14570

Appendix A-51
Date Filed: 07/13/2020

Page: 51 of 56

explanation for some of his difficulties, the jury heard a great deal about the
potential causes of those difficulties that were beyond Dallas’s control, including
the incredibly neglectful and abusive parenting he endured.
Perhaps most critically, Dr. Benedict’s marginally helpful testimony
regarding the ADHD diagnosis would have come at the cost of undermining part of
Dr. Renfro’s helpful trial testimony. Dr. Renfro categorized Dallas as having
below-average intelligence, while Dr. Benedict said Dallas was “of average
intellectual ability,” though he acknowledged that wide variance among Dallas’s
intelligence tests made it difficult to summarize his general intelligence with one
score. Introducing the ADHD diagnosis would have opened the door to Benedict’s
testimony that Dallas was of “average intelligence” — testimony that would have
been harmful to Dallas since it would have undermined Renfro’s assessment.
Indeed, “both the Supreme Court and this Court have consistently ‘rejected [the]
prejudice argument [ ] where mitigation evidence was a two-edged sword or would
have opened the door to damaging evidence.’” Ponticelli v. Sec’v, Fla. Dep’t of
Corr.. 690 F.3d 1271, 1296 (11th Cir. 2012) (alterations in original) (quoting
Cummings v. Sec’v for the Dep’t of Corr.. 588 F.3d 1331, 1367 (11th Cir. 2009)).
In short, we readily conclude that there is no reasonable probability that
Benedict’s testimony, even when added together with the additional (and largely

51

Case: 17-14570

Appendix A-52
Date Filed: 07/13/2020

Page: 52 of 56

cumulative) postconviction testimony of Dallas’s family members, would have
changed Dallas’s sentence.
The second piece of new evidence is more troubling. In his 2007 affidavit,
Paul Dallas, who testified at trial, alleged for the first time that he and Donald were
both sexually assaulted. But although Paul’s new allegation paints a darker picture
of Dallas’s childhood, it does not standing alone raise a reasonable probability that
the jury would not have recommended that Dallas be sentenced to death. We note
in passing that Donald Dallas gave his attorneys no indication that this abuse
occurred. See Williams v. Head, 185 F.3d 1223, 1237 (11th Cir. 1999) (“An
attorney does not render ineffective assistance by failing to discover and develop
evidence of childhood abuse that his client does not mention to him.”). Moreover,
Paul Dallas testified at his brother’s trial. His testimony immediately followed that
of his sister, Cindy, who alleged in her testimony that she had been molested as a
child. When Paul Dallas took the stand, Dallas’s counsel asked if he “ha[d] any
differences” with the characterization of their upbringing and background that his
sister had presented. Despite Cindy having mentioned the sexual abuse she had
suffered and despite Paul being present for that testimony, and only later saying
that he had witnessed the sexual abuse of Donald, Paul Dallas said simply, “No,
sir.” We have no way of knowing if, had Dallas’s attorneys done anything
differently, Paul would have testified about sexual abuse at the trial.
52

Case: 17-14570

Appendix A-53
Date Filed: 07/13/2020

Page: 53 of 56

Ultimately, and most critically, however, the aggravating factors were
overwhelming, and adding the allegation of sexual abuse would not have
sufficiently changed the balance of those factors or given rise to a reasonable
probability that the outcome would have changed. As we have already discussed,
the jury heard many details of the abusive and poverty-stricken conditions of
Dallas’s childhood. But the jury also necessarily found when it convicted him of
capital murder that Donald Dallas placed an elderly woman in the trunk of a car
and intended for her to die there. That is, that he intended for her to suffer a slow
and agonizing death in the sweltering trunk of a car. That he intended for her to
bear the mental anguish of being essentially buried alive. Of waiting in vain for
hope that would never arrive despite his promises to her. That he intended for her
to endure, in the words of Edgar Allen Poe, “a degree of appalling and intolerable
horror from which the most daring imagination must recoil”: the “unendurable
oppression of the lungs ... — the clinging to the death garments — the rigid
embrace of the narrow house — the blackness of the absolute Night — the silence
like a sea that overwhelms ... — these things, with the thoughts of the air and grass
above, with memory of dear friends who would fly to save us if but informed of
our fate.” Edgar Allen Poe, The Premature Burial (1850j. And that he abducted,
robbed, and nearly inflicted the same fate on 80-year-old Wesley Portwood, who
just three days earlier had warned Dallas that it was too hot to get into the trunk of
53

Case: 17-14570

Appendix A-54
Date Filed: 07/13/2020

Page: 54 of 56

a car because he would “smother to death in there.” The jury found that Dallas
intended to inflict unimaginable cruelty, and there is no reasonable probability that
the isolated allegation of sexual abuse, given all else that it knew about Dallas’s
tragic life and about his crime, would have changed the jury’s decision.
In each of the key Supreme Court cases finding prejudice as a result of
counsel’s failure to offer mitigating evidence, the disparity between what was
presented at trial and what was offered collaterally was vast. In other words, the
balance between the aggravating and mitigating evidence at trial and in
postconviction proceedings shifted enormously, so much so as to have profoundly
altered each of the defendants’ sentencing profiles. In Wiggins v. Smith, trial
counsel introduced no evidence whatsoever about Wiggins’s tragic life history,
which the postconviction record demonstrated was marked by “severe privation
and abuse in the first six years of his life while in the custody of his alcoholic,
absentee mother,” followed by “physical torment, sexual molestation, and repeated
rape during his subsequent years in foster care.” 539 U.S. at 535. In Williams v.
Taylor, trial counsel put on almost no mitigation case, calling witnesses who
testified only generally that Williams was a “nice boy” and not violent, while the
postconviction evidence “dramatically described mistreatment, abuse, and neglect
during his early childhood,” and also contained testimony “that he was ‘borderline
mentally retarded,’ had suffered repeated head injuries, and might have mental
54

Case: 17-14570

Appendix A-55
Date Filed: 07/13/2020

Page: 55 of 56

impairments organic in origin.” 529 U.S. at 369-70. In Porter v. McCollum, trial
counsel put on nothing in mitigation except “inconsistent testimony about Porter’s
behavior when intoxicated and testimony that Porter had a good relationship with
his son,” while the postconviction record painted a severely abusive childhood,
including routinely witnessing his father beating his mother, as well as being the
target himself of his father’s violence, along with a heroic and decorated record of
military service that left him with post-traumatic stress disorder and brain damage.
558 U.S. 30, 32-36 (2009). And in Andrus v. Texas, trial counsel “performed
almost no mitigation investigation, overlooking vast tranches of mitigating
evidence,” leading counsel to present a startlingly weak mitigation case that not
only failed to give the jury any insight into the defendant’s tragic childhood, but
ultimately “backfired by bolstering the State’s aggravation case.” No. 18-9674,
slip op. at 9 (S. Ct. June 15, 2020) (per curiam). The postconviction record there
demonstrated that Andrus “suffered ‘very pronounced trauma’ and posttraumatic
stress disorder symptoms from, among other things, ‘severe neglect,’ and exposure
to domestic violence, substance abuse, and death in his childhood,” none of which
his counsel investigated or presented. Id. at 10.
Unlike in Wiggins, in Williams, in Porter, and in Andrus, the new mitigating
evidence contained in the 2007 affidavits “would barely have altered the
sentencing profile presented” at Dallas’s trial. Strickland. 466 U.S. at 700. That
55

Case: 17-14570

Appendix A-56
Date Filed: 07/13/2020

Page: 56 of 56

profile amply painted a broad picture of Donald Dallas’s life: an abusive
childhood, violence, poverty, lack of guidance and role models, and substance
abuse from an early age into adulthood. Recognizing that the vast majority of the
allegedly new mitigating evidence presented in the 2007 affidavits did no more
than amplify the themes presented at trial, we think it wholly unlikely that the
additional evidence would have changed the jury’s result. Our confidence that the
juiy would have recommended death has not been undermined. In the face of the
horrific nature of Dallas’s crime and the brutality of Hazel Liveoak’s death, and
because the jury already knew much about Dallas’s life, there is no reasonable
probability that, had the jury known the limited additional details presented in
postconviction, they would have spared his life.
We, therefore, AFFIRM the district court’s denial of Dallas’s § 2254 habeas
petition.

56

